<html>
<title> - TRANSPARENCY, TRUST, AND VERIFICATION: MEASURING EFFECTIVENESS AND SITUATIONAL AWARENESS ALONG THE BORDER</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  TRANSPARENCY, TRUST, AND VERIFICATION: MEASURING EFFECTIVENESS AND 
                 SITUATIONAL AWARENESS ALONG THE BORDER

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2016

                               __________

                           Serial No. 114-57

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                                             

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                          U.S. GOVERNMENT PUBLISHING OFFICE
22-621 PDF                        WASHINGTON : 2016
_____________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f99e8996b99a8c8a8d919c9589d79a9694d7">[email&#160;protected]</a>  


                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 
                                 
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                   Martha McSally, Arizona, Chairman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Candice S. Miller, Michigan          Sheila Jackson Lee, Texas
Jeff Duncan, South Carolina          Brian Higgins, New York
Lou Barletta, Pennsylvania           Norma J. Torres, California
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairman, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan.....................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     9

                               Witnesses

Mr. Ronald D. Vitiello, Acting Chief, U.S. Border Patrol, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    10
  Joint Prepared Statement.......................................    11
Maj. Gen. Randolph D. ``Tex'' Alles, (Ret.-USMC), Executive 
  Assistant Commissioner, U.S. Customs and Border Protection, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    16
  Joint Prepared Statement.......................................    11
Ms. Rebecca Gambler, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19

 
  TRANSPARENCY, TRUST, AND VERIFICATION: MEASURING EFFECTIVENESS AND 
                 SITUATIONAL AWARENESS ALONG THE BORDER

                              ----------                              


                         Tuesday, March 1, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 311, Cannon House Office Building, Hon. Martha McSally 
[Chairman of the subcommittee] presiding.
    Present: Representatives McSally, Hurd, Miller, Higgins, 
and Torres.
    Ms. McSally. The Committee on Homeland Security's 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine DHS's 
efforts to secure the border and effectively measure border 
security.
    Before I begin, I just want to take the opportunity to 
thank Mrs. Miller, the former Chairman of the subcommittee, for 
her more than 5 years of superb leadership on this subcommittee 
and the opportunity that has been provided to me to lead this 
subcommittee. She has been an outspoken advocate and champion 
for the border, visa, and maritime security, and fought 
tirelessly for enhancements in the Visa Waiver Program that 
were enacted into law in December. Just a few days ago, the 
President signed the first-ever CBP Authorization Act, authored 
by Mrs. Miller, and signed that into law.
    I can say our security is much stronger because of the work 
of Chairman Miller. I want to yield some time to Chairman 
Miller.
    Mrs. Miller. Well, thank you very much, Chairman. I am 
delighted to call you that. As I think most people know, I am 
going to be not seeking reelection at the end of this term. I 
am a Michigan girl. Time for me to go home to Michigan, to the 
world's 2 most beautiful grandchildren.
    But at any rate, I had thought about this a bit, and 
talking to Chairman McCaul, who indicated that he had an 
interest in appointing you in the next Congress to the 
Chairmanship for this subcommittee. I told him: Look, there is 
nobody better.
    It is incredible the passion that you have for the border, 
not only the Southern Border but the Northern Border. I 
appreciate, particularly with Mr. Higgins sitting next to you, 
reminding the subcommittee as we go forward and into the next 
future Congresses how important all of our borders are 
certainly.
    But I have had an opportunity to travel with you, down to 
your beautiful district, and talk to a lot of your folks down 
there. About a year ago this time, we took a group of us down 
to the border.
    When we think about border issues and what a critical 
component it is of our National security, our homeland 
security, I just thought that having you take the Chairmanship 
early on here would make for a much smoother transition. I am 
just absolutely delighted, when we think about the background 
that you have, Bronze Star recipient, I think 25, 26 years in 
the military, you and I have fought together for the A-10. I 
will tell you what, I would go into battle with you anywhere, 
all day long, all day long.
    So this subcommittee has a fantastic reputation on the Hill 
for doing very vigorous oversight. I know that will continue 
under your Chairmanship and your leadership. I think, as you 
mentioned, the Visa Waiver Program, that piece of legislation 
signed into law already, and other kinds of things, the CBP 
authorization, all of these and more, huge challenges that our 
Nation faces.
    I know I leave this Chairmanship in exceptionally good 
hands. I look forward to continuing to work with you for the 
remainder of this Congress. Anything I can do, just call 
Michigan after that.
    Thanks very much, and good luck.
    Ms. McSally. Thanks, Chairman Miller. I just want to say I 
am thankful for your tremendous leadership and honored for your 
willingness to selflessly provide me this opportunity. I know I 
have huge shoes to fill, and I will do everything I can every 
day in order to make sure that we follow in your footsteps. But 
I really appreciate the opportunity that you are providing me. 
So thank you.
    Okay. I now recognize myself for an opening statement.
    Securing the border is ultimately one of the most important 
responsibilities of the Federal Government. The instability and 
chaos that drug cartels foster pose National security problems 
and public safety threats that endanger border communities. In 
fact, later this month marks the sixth anniversary of the death 
of Robert Krentz, a Cochise County resident, slain on his ranch 
roughly 30 miles north of the border.
    In southern Arizona, we are impacted by border insecurity 
every day--property destroyed, militarized-like checkpoints on 
our roads, and the fear of violence from transnational criminal 
organizations, or TCOs, running drug loads through our 
communities. The reality and perception of insecurity near the 
border also has negative impacts for businesses and tourism in 
border regions, suppressing an already struggling economy.
    The very same pathways and smuggling routes that facilitate 
the illicit flow of people and drugs could also, potentially, 
be used for terror, making it critical that we quickly gain 
control of the situation along the border.
    While progress has been made on the border over the last 25 
years, there is much more work to be done. There is a reason 
many Americans do not trust the Department when it comes to 
border security. They rightly worry that the Department will 
twist the numbers and give a false sense of security.
    Border security measures recently put out by the Department 
will do little to overcome this deficit of trust. Customs and 
Border Protection reported that it was 81 percent effective on 
the Southwest Border last year. That sounds impressive, 
especially when compared to previous measures that indicate 
around 44 percent of the border was under operational control.
    These new effectiveness numbers are hard to believe and I 
believe are inaccurate measures of the state of security on the 
border. The new interdiction effectiveness rates include 
unaccompanied children and families from countries other than 
Mexico who turn themselves in, inflating that number. It also 
fails to take into account the number that Border Patrol never 
sees, or the denominator, which also inflates this 
effectiveness number. The best analytical research, using all 
available data on interdiction effectiveness, puts the true 
probability of apprehension much closer to about 50 percent.
    Finally, the numbers don't tell us where the illicit 
activity was intercepted, which can sometimes be 100 miles or 
deeper into the United States, putting border communities in 
danger as traffickers transit our communities before they are 
caught.
    There are probably no better indicators of the 
effectiveness than the price and availability of illicit drugs. 
We have an alarming drug addiction epidemic in this country, 
and it is only getting worse, impacting communities and 
families across the Nation.
    Families grappling with tragedy tell heartbreaking stories 
of how their loved ones fell into addiction and how cheap and 
easy it was for them to get these illicit drugs. The price and 
availability of these drugs across the country demonstrate they 
still move across the border with relative ease.
    We must move beyond the political rhetoric that, on the one 
hand, says the border is out of control, while, on the other 
hand, says it is more secure than ever and everything is just 
fine. But the only way to do that is being transparent when it 
comes to security on the border. We all know the truth is 
somewhere in between, but the American people don't know where 
in between it is. So that just adds to the challenges and the 
frustrations.
    The truth is we have been given an incomplete picture as it 
relates to the situation on the border, and we cannot 
verifiably say where between those two ends of the spectrum we 
actually are. That is the heart of the problem. For too long, 
the U.S. Government has pushed the narrative that because we 
catch a lot of people, or in some cases not many at all, or 
have doubled the number of agents, or built miles of fence, 
that the border must be secure.
    That is just activity masquerading as effectiveness and 
lacks the important denominator. The Border Patrol cannot 
determine how many people we are not catching or detecting.
    Assessing if the billions of taxpayer dollars spent every 
year are actually effective at securing the border is a more 
productive and transparent way to look at border security. Can 
we stop drug cartels from moving their poison freely across our 
border? Is CBP catching the overwhelming number of people who 
cross the border illegally, and not just the ones they see? 
What about the ones we don't see?
    Of the illegal activity detected, how many were never 
caught? Of those apprehended, how many were within a half a 
mile of the border? How many were up to 25 miles? How many were 
up to 100 miles? This actually matters, because if you are 
living in that area, where it gets caught actually impacts the 
public safety concerns for you and your family.
    What about the flow of weapons and money that goes south 
across the border to fuel the TCOs' illicit activity? Do people 
along the border feel safe? How much of the illegal activity is 
detected and caught by State and local law enforcement versus 
CBP? Do border, State, and local first responders assess that 
the border is secure? What is the actual effectiveness of the 
checkpoints placed well inside our country?
    What percent of the 1,954 miles of southern land border 
does CBP have 100 percent situational awareness of, where if 
something or someone approaches or moves across the border, 
they will see it? This is a question I have been trying to get 
the answer to for a very long time. What percentage of those 
miles do they have operational control of, where agents can 
successfully interdict the activity once it is detected?
    Are the sensors, towers, and checkpoints, unmanned aerial 
vehicles, manned aircraft, are they assisting our agents to 
further these goals?
    Those are the real measures of effectiveness the American 
people can understand and need to know. I believe today's 
hearing is the first step we must take to continue to develop a 
complete understanding of what is actually happening at the 
Southern Border, commonly known as situational awareness. We 
use this term a lot in the military, by the way, and its 
acronym is SA. How is your SA? Is your SA high? Is your SA low? 
What percentage of SA do you have?
    Achieving situational awareness will require extensive use 
of technology. The border is too long and the terrain too rough 
and inaccessible in some places to be everywhere at once. But 
it will also take concentrating our agents closer to the border 
and rapid reaction forces to quickly move agents to intercept 
the activity once detected, before anyone becomes a public 
safety threat to our communities.
    It boils down to this: Do we know where the drug cartels 
are beating us so we can adjust deployment of our technology 
and agents to meet that threat? If the answer is no, we don't 
have situational awareness along the border.
    Once we fully understand the threat and the gaps in our 
awareness and our capabilities, we can move quickly, together, 
to address them. But without that, we are essentially flying 
blind. As a pilot, no one wants to do that. That cannot 
continue.
    The time has come to adequately measure situational 
awareness and effectiveness so we know where we are and, more 
importantly, where we need to go. I am looking forward to 
hearing from our witnesses today on CBP's plans to achieve 
situational awareness on the border and provide Congress with 
suitable metrics.
    [The statement of Chairman McSally follows:]
                  Statement of Chairman Martha McSally
                             March 1, 2016
    Securing the border is ultimately one of the most important 
responsibilities of the Federal Government. The instability and chaos 
that the drug cartels foster pose National security problems and public 
safety threats that endanger border communities.
    In fact, later this month marks the sixth anniversary of the death 
of Robert Krentz, a Cochise County resident slain on his ranch roughly 
30 miles north of the border.
    In Southern Arizona, we are impacted by border insecurity every 
day--property destroyed, militarized-like checkpoints on our roads, and 
fear of violence from transnational criminal organizations (or TCOs) 
running drug loads through our communities. The reality and perception 
of the insecurity near the border also has negative impacts for 
businesses and tourism in border regions, suppressing an already 
struggling economy.
    And the very same pathways and smuggling routes that facilitate the 
illicit flow of people and drugs could also potentially be used for 
terror, making it critical that we quickly gain control of the 
situation along the border.
    While progress has been made on the border over the last 25 years, 
there is much more work to be done.
    There is a reason that many Americans do not trust the Department 
when it comes to border security. They rightly worry that the 
Department will twist the numbers to give a false sense of security. 
Border security measures recently put out by the Department will do 
little to overcome this deficit of trust.
    Customs and Border Protection (CBP) reported that it was 81% 
effective on the Southwest Border last year. This sounds impressive, 
especially when compared to the previous measure that indicated around 
44% of the border was under operation control.
    These new effectiveness numbers are hard to believe, and I believe 
are inaccurate measures of the state of security on the border.
    The new interdiction effectiveness rate includes unaccompanied 
children and families from countries other than Mexico, who turn 
themselves in, inflating the number. It also fails to take into account 
the number the Border Patrol never sees, or the denominator, which also 
inflates the effectiveness. The best analytical research, using all 
available data, on interdiction effectiveness puts the true probability 
of apprehension much closer to 50 percent.
    Finally, the numbers don't tell us where the illicit activity was 
intercepted, which can sometimes be 100 miles or deeper into the United 
States, putting border communities in danger as traffickers transit our 
communities before they are caught.
    There are probably no better indicators of effectiveness than the 
price and availability of illicit drugs. We have an alarming drug 
addiction epidemic in the country that is only getting worse, impacting 
communities and families across the Nation.
    Families grappling with tragedy tell heart-breaking stories of how 
their loved ones fell into addiction and how cheap and easy it was for 
them to get these illicit drugs. The price and availability of these 
drugs across the country demonstrate that they still move across the 
border with relative ease.
    We must move beyond the political rhetoric that on one hand says 
that the border is out of control, while the other says it is more 
secure than ever and everything is fine. But the only way to do that is 
by being transparent when it comes to security on the border.
    The truth is we have been given an incomplete picture as it relates 
to the situation on the border, and we cannot verifiably say where, 
between those two ends of the spectrum, we actually are--and that's the 
heart of the problem.
    For too long, the U.S. Government has pushed the narrative that 
because we catch a lot of people, or in some cases not many at all, or 
have doubled the number of agents, or built miles of fence that the 
border must be secure.
    That is just activity masquerading as effectiveness and lacks an 
important denominator. The Border Patrol cannot determine how many 
people we are not catching, or detecting.
    Assessing if the billions of taxpayer dollars spent every year are 
actually effective at securing the border is a more productive and 
transparent way to look at border security.
    Can we stop drug cartels from moving their poison freely across the 
border?
    Is CBP catching the overwhelming number of people who cross the 
border illegally? And not just the ones they see.
    Of the illegal activity detected by CBP, how many were never 
caught?
    Of those apprehended how many were within .5 miles of the border 
and how many caught between half a mile and 5 miles, 5 to 25 miles, 25-
100 miles, or over 100 miles inland?
    What about the flow of weapons and money that goes south across the 
border to fuel TCO's illicit and dangerous activities?
    Do the people who live along the border feel safe?
    How much illegal activity is detected and caught by State and local 
law enforcement vs CBP? Do border State and local first responders 
assess the border as secure?
    What is the actual effectiveness of the checkpoints placed well 
inside our country?
    What percent of the 1,954 miles of southern land border does CBP 
have 100% situational awareness of, where if something or someone 
approaches or moves across the border, they see it? And what percentage 
of those miles do they have operational control where agents can 
successfully interdict the activity once it is detected?
    And are the sensors, towers, checkpoints, unmanned aerial vehicles, 
and manned aircraft adequately assisting our agents to further those 
goals?
    Those are real measures of effectiveness the American people can 
understand, and need to know.
    I believe today's hearing is a first step we must take to develop a 
complete understanding of what is actually happening at the border--
commonly known as situational awareness.
    Achieving situational awareness will require the extensive use of 
technology--the border is just too long, and the terrain too rough and 
inaccessible to be everywhere at once.
    But it will also take concentrating agents closer to the border and 
a rapid reaction force to quickly move agents to intercept activity 
before anyone becomes a public safety threat to our communities.
    It boils down to this: Do we know where the drug cartels are 
beating us, so we can adjust the deployment of our technology and 
agents to meet the threat? If the answer is no, then we don't have 
situational awareness along the border.
    Once we fully understand the threat and gaps in our awareness and 
capabilities then we can move quickly to address them.
    Without situational awareness we are essentially flying blind, and 
that cannot continue.
    The time has come to measure situational awareness and 
effectiveness, so we know where we are, and more importantly where we 
need to go.
    I am looking forward to hearing from our witnesses today on how CBP 
plans to achieve situational awareness on the border and provide 
Congress with suitable metrics.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. McSally. The Chair now recognizes the Acting Ranking 
Minority Member of the subcommittee, the gentleman from New 
York, Mr. Higgins, for any statement he may have. He just broke 
his microphone.
    Mr. Higgins. Thank you very much.
    Before I begin, I just wanted to also extend my 
appreciation and thanks to our colleague, Candice Miller, for 
her work on the committee and the subcommittee. While this is a 
continuum, we still have a lot of work to do. The Northern 
Border is much more secure because of your leadership on this 
issue. I have enjoyed very much collaborating with you in the 
best interests of those Northern Border communities. So thank 
you very much, Candice.
    I also want to congratulate my colleague from Arizona, 
Representative McSally, on her new position as Chair of the 
Subcommittee on Border and Maritime Security. In the absence of 
Ranking Member Filemon Vela, I am pleased to serve as the 
Ranking Member today, particularly given the topic at hand, 
border security.
    Like my colleagues from Arizona, Texas, and Michigan, I 
also represent a border district, though mine is located on our 
Nation's border with Canada, much like Mrs. Miller. The 26th 
Congressional District of New York consists of portions of Erie 
and Niagara Counties, including the cities of Buffalo and 
Niagara Falls, and sits adjacent to America's maritime border 
with Canada, along the Niagara River and the eastern shores of 
Lake Erie.
    Buffalo is home to the Peace Bridge, the busiest passenger 
crossing on the Northern Border, and a crucial link between the 
economies of western New York and southern Ontario and our 2 
great Nations. Niagara Falls is home to 2 more international 
crossings, the Rainbow Bridge and the Whirlpool Bridge, which 
are also critical to travel and tourism in the region.
    Cross-border travel and the efficient flow of goods and 
people across the border are vital to the communities I am 
privileged to represent. We are fortunate to have a strong 
partner in border security and facilitation matters on our 
Northern Border, that being Canada.
    Like most Americans, I have a keen interest in ensuring 
that all of our Nation's borders are secure, including, of 
course, the Southern Border, but I will focus my comments today 
on our Northern Border, since our border with Canada is often 
somewhat foreign to these discussions.
    The nature of the threat on the Northern Border, primarily 
terrorists and their instruments entering the United States 
across the vast open spaces of our 5,000-mile shared border 
with Canada, is certainly very different from the Southern 
Border where the volume of undocumented crossers from Mexico 
dwarfs the number that enter from Canada each year. Still, 
there are far fewer Federal resources dedicated to securing the 
Northern Border, which could be a cause for concern. Only a 
fraction of the total number of Border Patrol agents, air 
assets, cameras are deployed on the Northern Border, meaning 
situational awareness on the Northern Border is not what it 
should be.
    Similarly, the United States Customs and Border 
Protection's Office of Field Operations continues to be 
understaffed at ports of entry based on the agency's own 
staffing model, which slows legitimate crossers, and makes it 
more difficult for officials to spot the handful who may pose 
concern. The fact that our shared border with Canada includes 
the Great Lakes and other waterways regularly enjoyed by 
thousands of legitimate boaters only adds to the challenge of 
achieving situational awareness in the region.
    I hope to hear from our Customs and Border Protection 
witnesses today about how we can improve situational awareness 
along our Northern Border, perhaps in conjunction with our 
Canadian partners.
    With respect to measuring border security, many of the 
metrics used on the Southern Border, such as the number of 
individuals apprehended or pounds of drugs seized, are just as 
appropriate for the Northern Border. I hope to hear from our 
Government Accountability Office witness today about what their 
work indicates about the state of border security, and 
especially what metrics might be most appropriate for the 
Northern Border.
    Finally, I look forward to hearing from the entire panel 
today about how the Department of Homeland Security, with 
support from Congress, can continue to better secure all of our 
Nation's borders.
    I thank the witnesses for being here. I yield back the 
balance of my time.
    [The statement of Mr. Higgins follows:]
                    Statement of Hon. Brian Higgins
                             March 1, 2016
    Like my colleagues from Arizona and Texas, I also represent a 
border district, though mine is located on our Nation's border with 
Canada. New York's 26th Congressional District consists of portions of 
Erie and Niagara Counties, including the cities of Buffalo and Niagara 
Falls, and sits adjacent to America's maritime border with Canada along 
the Niagara River and the eastern shores of Lake Erie.
    Buffalo is home to the Peace Bridge, the busiest passenger crossing 
on the Northern Border and a crucial link between the economies of 
Western New York and Southern Ontario and our two great Nations. 
Niagara Falls is home to 2 more international crossings, the Rainbow 
Bridge and the Whirlpool Bridge, which are also critical to travel and 
tourism in the region.
    Cross-border travel and the efficient flow of goods and people 
across the border are vital to the communities I am privileged to 
represent. We are fortunate to have a strong partner in border security 
and facilitation matters in our northern neighbor, Canada. Like most 
Americans, I have a keen interest in ensuring all of our Nation's 
borders are secure, including, of course, the Southern Border. But I 
will focus my comments today on our Northern Border, since our border 
with Canada is often somewhat forgotten in these discussions.
    The nature of the threat on the Northern Border--primarily 
terrorists or their instruments entering the United States across the 
vast, open spaces of our 5,000-mile shared border with Canada--is 
certainly very different from the Southern Border, where the volume of 
undocumented crossers from Mexico dwarfs the number that enter from 
Canada each year.
    Still, there are far fewer Federal resources dedicated to securing 
the Northern Border, which could be cause for concern. Only a fraction 
of the total number of Border Patrol agents, air assets, and cameras 
are deployed on the Northern Border, meaning situational awareness on 
the Northern Border is not what it should be.
    Similarly, U.S. Customs and Border Protection's Office of Field 
Operations continues to be understaffed at ports of entry based on the 
agency's own staffing model, which slows legitimate crossers and makes 
it more difficult for officials to spot the handful who may pose a 
concern.
    The fact that our shared border with Canada includes the Great 
Lakes and other waterways regularly enjoyed by thousands of legitimate 
boaters only adds to the challenge of achieving situational awareness 
in the region. I hope to hear from our CBP witnesses today about how we 
can improve situational awareness along our Northern Border, perhaps in 
conjunction with our Canadian partners.
    With respect to measuring border security, many of the metrics used 
on the Southern Border--such as the number of individuals apprehended 
or pounds of drugs seized--are just not as appropriate for the Northern 
Border.
    I hope to hear from our Government Accountability Office witness 
today about what their work indicates about the state of border 
security, and especially what metrics might be most appropriate for the 
Northern Border. Finally, I look forward to hearing from the entire 
panel today about how the Department of Homeland Security, with support 
from Congress, can continue to better secure all of our Nation's 
borders.

    Ms. McSally. The gentleman yields. Other Members of the 
committee are reminded opening statements may be submitted for 
the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 1, 2016
    We are fortunate to have Members representing border districts--one 
on the Northern Border and one on the Southern Border--leading the 
discussion today. Of course, this is not a new discussion. This 
committee has held several hearings over the years examining DHS's 
efforts to improve situational awareness along our Nation's borders and 
develop metrics to assess the state of border security.
    Achieving situational awareness of 8,000 miles of land border with 
Canada and Mexico, not to mention thousands more miles of maritime 
border, is no easy task. With the support of Congress, in recent years, 
DHS has deployed an unprecedented number of Border Patrol agents, new 
technology including cameras and radar systems, and assets such as UAVs 
in order to improve situational awareness. Due in large part to the 
vast, open spaces of America's borders, much more remains to be done.
    I hope to hear from our witnesses today about where DHS has made 
progress on situational awareness, where the most significant gaps 
remain, and how we can best go about addressing them. This committee 
has also discussed border security metrics, and particularly how we can 
determine whether the Department of Homeland Security's border security 
efforts are working. We have seen Border Patrol shift from reporting 
miles of border under ``operational control'' to reporting apprehension 
data to trying to develop a Border Condition Index.
    Today, the Department uses risk assessments to characterize the 
state of areas of the border. Measuring border security effectiveness 
is more complex than it may seem, in part due to differences of opinion 
on what constitutes ``border security'' in the first place. For some, 
border security means stopping people from crossing the Southern Border 
between the ports of entry.
    It is that, but it is more. It also means securing our Northern 
Border, our maritime borders, and our air, sea, and land ports--not 
just from individuals entering unlawfully, but also narcotics and other 
contraband and, most importantly, terrorists.
    We need a meaningful, workable set of metrics that offers an 
accurate assessment of security of all of our Nation's borders, both at 
and between the ports of entry. I hope to hear more from our witnesses 
about what the most relevant metrics might be. I am especially pleased 
that we are joined today by a witness from the Government 
Accountability Office, Ms. Rebecca Gambler. GAO has done some very 
important work on border security matters on behalf of this committee. 
I hope to hear from Ms. Gambler about what GAO's body of work indicates 
about the state of situational awareness and security along our 
borders. Indeed, I look forward to hearing from all of our witnesses 
about how we can continue to better secure our Nation's borders.

    Ms. McSally. We are pleased to be joined by three 
distinguished witness today to discuss this important issue.
    Ronald Vitiello is the acting chief of the U.S. Border 
Patrol. As its chief operating officer, he is responsible for 
the daily operations of the U.S. Border Patrol and assists the 
commissioner of U.S. Customs and Border Protection in planning 
and directing Nation-wide enforcement. Chief Vitiello began his 
Border Patrol career in 1985 and has served in Swanton, Tucson, 
and Laredo sectors.
    General Randolph Alles is the executive assistant 
commissioner for CBP's Office of Air and Marine, a position he 
has held since January 2013. In this role, Mr. Alles is charged 
with overseeing the AMO mission of using aviation and maritime 
assets to detect, interdict, and prevent acts of terrorism and 
unlawful movement of drugs and other contraband from entering 
the United States. Before joining AMO, he spent 35 years in the 
United States Marine Corps, retiring in 2011 as a major 
general.
    Rebecca Gambler is director of the U.S. Government 
Accountability Office's Homeland Security and Justice Team, 
where she leads GAO's work on border security, immigration, and 
the Department of Homeland Security's management and 
transformation. Prior to joining GAO, Ms. Gambler worked at the 
National Endowment for Democracy's International Forum for 
Democratic Studies.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Chief Vitiello for 5 minutes to 
testify.

  STATEMENT OF RONALD D. VITIELLO, ACTING CHIEF, U.S. BORDER 
          PATROL, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Vitiello. Thank you, Chairwoman McSally, Ranking Member 
Higgins, and the distinguished Members of the subcommittee, for 
the opportunity to testify today on behalf of the U.S. Border 
Patrol to discuss situational awareness and effectiveness.
    Border Patrol operations along the U.S. border are 
constantly challenged by evolving tactics of transnational 
criminal organizations and individuals. To enhance our 
situational awareness and detect changes in threat levels and 
criminal flows across the border environment, the Border Patrol 
uses sophisticated technology and various tactics to gather 
information and intelligence. We collaborate with State, local, 
Tribal, as well as international law enforcement, intelligence, 
defense, and local community partners.
    Thanks to the support of this subcommittee, CBP has 
deployed capable resources to increase our situational 
awareness along the Southern Border and our ability to rapidly 
respond as appropriate to areas of increasing risk. For 
example, integrated fixed towers deployed along the border in 
Arizona provide a long-range persistent surveillance. These 
tower systems automatically detect and track items of interest 
and provide centralized operations with video and geospatial 
location of suspected items of interest for identification and 
appropriate action.
    Mobile technology, mounted on vehicles or carried by 
agents, is used in conjunction with fixed assets and provides 
the Border Patrol flexibility and agility to adapt to changing 
border conditions and threats. Tactical aerostats, acquired as 
part of the Department of Defense Reuse program, have also 
proven to be a vital asset in increasing CBP's situational 
awareness and our ability to detect, identify, and track 
illegal cross-border activity.
    In addition to the use of surveillance technology, 
collaboration and information sharing with our law enforcement 
partners is a key component of building situational awareness 
and response capabilities along the Southwest Border. We work 
closely within CBP, especially with Air and Marine Operations, 
as well as multiple DHS, Federal, international, State, and 
local law enforcement agencies.
    The Border Patrol is an active participant in the DHS 
Southern Border and Approaches Campaign and has a crucial role 
in the Joint Task Force-West, an integrated operational 
approach to addressing the threat of transnational criminal 
organizations along the Southwest Border. We also participate 
in regular briefings with Federal, State, and local partners 
regarding the current state of the border in order to monitor 
emerging trends and threats.
    To ensure that the Border Patrol is positioned to respond 
to emerging threats, the Border Patrol uses a risk-based 
strategy to deploy resources. Our risk assessments are formed 
by multiple indicators, including the interdiction 
effectiveness rate, which is the percent of detected illegal 
entrants who are apprehended or turned back after illegally 
entering the United States between the ports of entry.
    Furthermore, in coordination with the new DHS joint 
requirements process, the Border Patrol uses a Capability Gap 
Analysis Process to conduct mission analysis and identify 
capability gaps in specific geographic locations.
    Because of the complexity of our border security mission, 
there is no single metric that can measure the full scope of 
our security efforts. Instead, we rely on a number of 
significant indicators to evaluate trends and developments over 
time, assess our performance, and refine our operations.
    Tracking total apprehensions provides us information about 
the volume of people attempting to cross the border illegally. 
However, further analysis on the individual level can and does 
expand our understanding of changes in illegal activity between 
the ports.
    For example, we consider the rates of recidivism or the 
percentage of apprehended individuals who have crossed the 
board illegally multiple times. This distinction is important 
in understanding the threat environment. Moreover, as a 
measure, it informs our decisions to redeploy resources to 
high-risk areas and to apply appropriate consequences in order 
to reduce repeat activity. Other analysis considerations 
include how many arrested individuals have criminal records, 
outstanding warrants, or were arrested while smuggling people 
or drugs.
    This analysis, in conjunction with the information obtained 
from fixed and mobile surveillance systems and our law 
enforcement partners enhances situational awareness and better 
enables the Border Patrol to detect, identify, classify, 
monitor, and appropriately respond to threats and other 
challenges along our U.S. borders.
    Thanks again for the opportunity to appear today. I look 
forward to answering your questions.
    [The joint prepared statement of Mr. Vitiello and Mr. Alles 
follows:]
   Joint Prepared Statement of Ronald Vitiello and Randolph D. Alles
                             March 1, 2016
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee. It is a pleasure to appear before you today on 
behalf of U.S. Customs and Border Protection (CBP) to discuss measuring 
effectiveness and situational awareness of the Southwest Border.
    Along the more than 5,000 miles of land border with Canada and 
Mexico, and approximately 95,000 miles of shoreline, CBP works with our 
DHS, interagency, and State and local partners to secure our borders 
and the associated airspace and maritime approaches to prevent illegal 
entry of people and goods into the United States, while also 
facilitating lawful trade and travel.
    The border environment in which CBP works is dynamic and requires 
adaptation to respond to emerging threats and changing conditions. We 
appreciate the partnership and support we have received from this 
subcommittee, whose commitment to the security of the American people 
has enabled the continued deployment of resources and capabilities we 
need to secure the border.
    The U.S. Border Patrol (USBP) and Air and Marine Operations (AMO), 
in conjunction with DHS Joint Task Force--West, have primary 
responsibility for the border security mission between the Nation's 
ports of entry (POEs) through the coordinated use of integrated assets 
to detect, interdict, and prevent acts of terrorism and the unlawful 
movement of people, illegal drugs, and contraband toward or across the 
borders of the United States. CBP implements intelligence-driven 
counter network strategies focused on areas of greatest risk, and 
deploys its capabilities to adapt to emerging threats along the border.
    Detecting and interdicting terrorists and their weapons will always 
be a focused priority. Furthermore, the illegal cross-border activities 
of transnational criminal organizations (TCOs) and other bad actors 
pose a growing threat to border security and public safety. TCOs 
control most cross-border trafficking of guns and illegal drugs, and 
there is evidence of their increased involvement with human smuggling. 
Using a risk-informed and intelligence-driven approach, CBP will 
continue to enhance our efforts to anticipate and respond to threats to 
our National security, ensure the safety of the U.S. public, and deter, 
prevent, and disrupt future illegal activities.
    As the preeminent law enforcement agency responsible for 
safeguarding and managing America's borders, CBP develops and sustains 
situational awareness of current and potential threats and associated 
risks. Situational awareness forms the cornerstone of our approach to 
proactively identify and eliminate criminal and illegal activity across 
the Nation's air, land, and maritime borders. It is derived from CBP's 
comprehensive understanding of the threat environment and provides an 
in-depth picture of the current operating conditions within a specific 
region of the border environment.
    Situational awareness, like the border environment, is dynamic and 
grows through a variety of types of information collection--obtained 
through intelligence and surveillance technology--and analysis in the 
context of other regional or National cross-border trends, especially 
those concerning illicit trafficking and unlawful border crossings. CBP 
leverages a wide range of tactics, techniques, and sophisticated 
technologies to enhance situational awareness and increase CBP's 
ability to prevent and disrupt threats in the border environment.
    The border environment in which CBP operates is challenged by 
continuously-evolving tactics of TCOs, terrorists, and other criminals. 
Detecting changes in threat levels and criminal flows across the border 
environment requires the use of various tactics to gather information 
and intelligence in both low- and high-threat areas. To promote and 
advance situational awareness, CBP deploys sophisticated surveillance 
and detection technology and collaborates with domestic and 
international law enforcement, intelligence, defense, and local 
community partners.
                  advanced technology and capabilities
    Thanks to the support of this subcommittee, CBP has deployed 
capable resources to increase our situational awareness, identify 
changes in the border environment, and rapidly respond, as appropriate, 
to areas of increasing risk. The use of technology in the border 
environment is an invaluable force multiplier to increase situational 
awareness.
Along U.S. Borders
    The information gleaned from fixed and mobile surveillance systems, 
ground sensors, imaging systems, and other advanced technologies 
enhances situational awareness and better enables CBP to detect, 
identify, classify, monitor, and appropriately respond to threats and 
other challenges along the U.S. borders.
    The Integrated Fixed Tower (IFT) systems and Remote Video 
Surveillance Systems (RVSS) are fixed technology assets used in select 
areas along the Southwest Border. The IFT system is a series of fixed 
surveillance towers and equipment located in Arizona that provide long-
range persistent surveillance. These tower systems automatically detect 
and track items of interest, and provide centralized operators with 
video and geospatial location of suspected items of interest for 
identification and appropriate action. RVSS provide short-, medium-, 
and long-range persistent surveillance mounted on stand-alone towers or 
other structures. The RVSS uses cameras, radio, and microwave 
transmitters to send video to a control room and enable a control room 
operator to remotely detect, identify, classify, and track targets 
using a video feed.
    In some areas along the Southwest Border, CBP also uses Unattended 
Ground Sensors (UGS) and Imaging Sensors (IS), which contribute to 
improved situational awareness, agent safety, and rapid response. These 
sensors support our capability to detect and identify subjects. When a 
ground sensor is activated, an alarm is communicated to a data decoder 
that translates the sensor's activation data to a centralized 
operations center computer system. IS are a specific type of unattended 
ground sensor with an integrated camera and the ability to transmit 
images or video back to the operations center.
    Fixed-system technology increases CBP's situational awareness and 
the Border Patrol's ability to detect, identify, classify, and track 
illicit activity by providing line-of-sight surveillance to efficiently 
detect incursions in varying terrain. CBP integrates mobile and 
portable systems to address areas where rugged terrain and dense ground 
cover may allow adversaries to penetrate through blind spots or avoid 
the coverage areas of fixed systems.
    Working in conjunction with fixed surveillance assets, CBP's mobile 
technology assets provide flexibility and agility to adapt to changing 
border conditions and threats along the Southwest Border. Mobile 
Surveillance Capability systems provide long-range mobile surveillance 
with a suite of radar and camera sensors mounted on USBP vehicles. 
Mobile Video Surveillance Systems provide short- and medium-range 
mobile surveillance equipment mounted on telescoping masts via camera 
sensors mounted on USBP vehicles. Another system, the Agent Portable 
Surveillance System (APSS), does not need to be mounted to a vehicle. 
These current generation assets provide medium-range mobile 
surveillance mounted on a tripod and transported by three or more 
agents. Two agents remain on-site, one to operate the system, which 
automatically detects and tracks items of interest and provides the 
agent/operator with data and video of selected items of interest. Next 
generation APSS options are being explored.
    These technologies not only provide significant security benefits 
and multiply the capabilities of law enforcement personnel to detect, 
identify, and respond to suspicious activity, but they also enhance 
public safety along the border. Mobile surveillance technology systems 
enable agents to position the technology where it is needed at a 
specific moment, extend our observational capabilities--in this case, 
by helping see through the darkness and increasing the accuracy and 
speed of our response.
    CBP's Tactical Aerostats and Re-locatable Towers program, 
originally part of the Department of Defense (DoD) Reuse program, uses 
a mix of aerostats, towers, cameras, and radars to provide USBP with 
increased situational awareness through an advanced surveillance 
capability over a wide area. This capability has proven to be a vital 
asset in increasing CBP's ability to detect, identify, classify, and 
track activity. As of December 2015, USBP agents seized 122 tons of 
narcotics and conducted over 50,000 apprehensions of illegal border 
crossers with the assistance of existing aerostats and towers.
    Technology is critical to border security operations. Through the 
deployment of these complementary and effective fixed and mobile 
systems, CBP gains more coverage and situational awareness of 
surveillance gaps, and increases its ability to adapt to changing 
conditions to effectively detect, identify, classify, track, and 
interdict potential threats along the borders.
From the Air and the Sea
    AMO increases CBP's situational awareness, enhances its detection 
and interdiction capabilities, and extends our border security zones, 
offering greater capacity to stop threats prior to reaching the 
Nation's shores. Through the use of coordinated and integrated air and 
marine capabilities--including fixed- and rotary-wing aircraft, 
unmanned aircraft systems (UAS), tethered aerostats and patrol and 
interdiction vessels--AMO detects, interdicts, and prevents acts of 
terrorism and the unlawful movement of people, illegal drugs, and other 
contraband toward or across U.S. borders. AMO conducts critical aerial 
and maritime surveillance, interdiction, investigation, and multi-
domain awareness law enforcement operations, in addition to providing 
assistance to ground personnel.
    AMO's fleet of aerial assets provides critical surveillance and 
situational awareness across the Nation's land borders, in the littoral 
waters, in the maritime approaches to the United States, and in the 
international source and transit zones.
    AMO P-3 Long-Range Trackers and Airborne Early Warning Aircraft 
provide detection and interdiction capability in both the air and 
marine environments. Sophisticated sensors and high-endurance 
capability greatly increase CBP's range to counter illicit trafficking. 
P-3s are an integral part of the successful counter-narcotic missions 
operating in coordination with Joint Interagency Task Force (JIATF)--
South. P-3s patrol in a 42 million-square-mile area that includes more 
than 41 nations, the Pacific Ocean, Gulf of Mexico, Caribbean Sea, and 
maritime approaches to the United States.
    Additionally, UAS are increasingly instrumental in CBP's layered 
and integrated approach to border security. AMO has deployed 6 UAS 
along the Southwest Border to detect, identify, and classify moving 
tracks of interest over land and sea. Four of these aircraft have 
Vehicle and Dismount Exploitation Radar (VADER) capability, which is a 
side-looking airborne radar that detects illegal border crossers and 
relays their positions to field agents, while simultaneously capturing 
terrain change detection information across larger stretches of the 
border. UAS are also used to meet surveillance and other mission 
requirements along the Northern borders and in the drug source and 
transit zones. During fiscal year 2015, CBP's VADER-equipped UAS 
recorded 9,371 detections of illegal activity.
    Multi-Role Enforcement Aircraft (MEA) have a multi-mode radar for 
use over water and land, an electro-optical/infrared camera system, and 
a satellite communications system. This highly adaptable and capable 
aircraft replaces several older, single-mission assets. An equally 
important and more capable asset is the DHC-8 Maritime Patrol Aircraft 
(MPA). It bridges the gap between the longer range P-3s and UAS and the 
smaller MEA. The DHC-8 is an invaluable situational awareness platform 
for AMO in the Gulf of Mexico and the Caribbean.
    AMO uses the Tethered Aerostat Radar System (TARS) to provide land, 
maritime, and aerial domain awareness, including detection of low-
altitude aircraft and other potential threats. CBP assumed 
responsibility of TARS from the U.S. Air Force in 2013, providing radar 
detection and monitoring of low-altitude aircraft and surface vessels 
along the U.S.-Mexico border, the Florida Straits, and a portion of the 
Caribbean. With 8 aerostat sites--6 along the Southwest Border, one in 
the Florida Keys, and one in Puerto Rico--the TARS elevated sensor 
mitigates the effect of the curvature of the earth and terrain-masking 
limitations associated with ground-based radars, enabling maximum long-
range radar detection. In fiscal year 2014 and fiscal year 2015 
combined, TARS recorded nearly 1,000 suspected cross-border attempts of 
non-commercial aircraft, about 50 percent of all border-related radar 
detections in the air domain.
    Some of the most important advancements in increasing CBP's 
situational awareness are in the area of data integration and 
exploitation. Downlink technology, paired with the BigPipe system, 
allows AMO to provide a video feed and situational awareness to its law 
enforcement partners in real time. In addition, the Minotaur mission 
integration system allows multiple aircraft to share information from 
multiple sources, providing a never-before-seen level of air, land, and 
sea domain awareness. As the Minotaur system evolves across the fleet, 
it will provide increased awareness for a greater number of users as 
the information is integrated into the Air and Marine Operations Center 
(AMOC).
    A vital component of DHS's domain awareness capabilities, CBP's 
AMOC integrates the surveillance and law enforcement data capabilities 
of DHS's Federal and international partners. CBP agents assigned to 
AMOC serve to correlate information from USBP technology with AMOC's 
systems to close the gaps in situational awareness. This combined 
effort has contributed to a reduction in the ultra-light aircraft 
activity on the Southwest Border. Fiscal year 2015 suspect activity has 
decreased to 59 events from a high of 332 in fiscal year 2010. Office 
of Field Operations (OFO) officers from the National Targeting Center 
imbedded at AMOC use their tools to close the seam between commercial 
and general aviation suspect activity. Overall, AMOC evaluated almost 
500,000 internal air tracks in fiscal year 2015 with a 99.99 percent 
successful resolution rate. AMOC has integrated DoD and FAA sensors 
into the CBP network to expand our awareness well beyond the U.S. air 
and maritime borders. The stemming of the panga-type boat threats on 
the West Coast is attributed to the whole of DHS (CBP, U.S. Coast 
Guard, and U.S. Immigration and Customs Enforcement/Homeland Security 
Investigations) coordinated efforts with Mexican partners facilitated 
through this integration and collaboration.
    Coordinating with extensive law enforcement and intelligence 
databases, including Classified systems and communication networks, 
AMOC enhances our situational awareness and uses its capability to 
coordinate a law enforcement response to suspect activity in the air, 
maritime, and land domains. AMOC systems are connected to nearly 150 
locations in various agencies to enable collaboration. For example, in 
fiscal year 15 AMOC coordinated over 400 Mexican responses to illicit 
air traffic preventing it from crossing our borders.
    CBP uses tactics such as periodic reconnaissance patrols, sign-
cutting, tracking, and UAS flights to understand the threats faced 
along the Nation's borders and in the approaches. For example, CBP uses 
change-detection capabilities in various ways to gather information and 
intelligence in low-threat areas. Change-detection capabilities 
increase the level of situational awareness in all areas, including 
those areas currently assessed as lower risk. This allows CBP to 
continue focusing resources in areas where the highest risk exists, but 
to quickly identify any emerging threat adaptation through information 
and intelligence and take appropriate steps to rapidly minimize any new 
risk.
    CBP's continued deployment of fixed and mobile border surveillance 
technology, integrated with AMOC's enhanced domain awareness 
capabilities, allows CBP the flexibility to shift more officers and 
agents from detection duties to the interdiction of illegal activities 
on our borders. Additionally, CBP is looking to the future by working 
closely with the DHS Science & Technology Directorate to identify and 
develop additional technologies to improve our situational awareness, 
surveillance, and detection capabilities along our land and maritime 
borders.
                  intelligence and information sharing
    Criminal intelligence sharing is a key component in building 
situational awareness efforts along the Southwest Border. CBP and 
participating component agencies contribute to several initiatives to 
improve the combined intelligence capabilities of Federal, State, 
local, Tribal, and international partners along the Southwest Border.
    CBP hosts a monthly briefing/teleconference with State and local 
partners in order to monitor emerging trends and threats along the 
Southwest Border and provide a cross-component, multi-agency venue for 
discussing trends and threats. The weekly briefing focuses on 
narcotics, weapons, currency interdictions and alien apprehensions both 
at and between the Southwest Border. These briefings/teleconferences 
currently include participants from: DHS Joint Task Force West, ICE; 
USCG; Drug Enforcement Administration; Federal Bureau of Investigation; 
U.S. Northern Command; Joint Interagency Task Force-South; Bureau of 
Alcohol, Tobacco, Firearms, and Explosives; U.S. Attorneys' Offices; 
Naval Investigative Command; State Fusion Centers; and local law 
enforcement as appropriate.
                        operational coordination
    Secretary Johnson's Unity of Effort initiative has put in place new 
and strengthened management processes at DHS headquarters to enable 
more effective DHS component operations. In addition, DHS-wide border 
security activities are being strategically guided by the Southern 
Border and Approaches Campaign. Aimed at leveraging the range of unique 
Department roles, responsibilities, and capabilities, the Campaign 
enhances our operational approach to working together in a more unified 
way to address comprehensive threat environments. This cross-component 
strategy includes the development of 3 pilot DHS Joint Task Forces 
(JTF)--JTF-West, JTF-East, and JTF-Investigations.
    The creation of the JTFs, unified joint task forces along the 
Southwest Border and in the approaches to the United States, increases 
information sharing with Federal, State, and local law enforcement 
agencies; improves situational awareness, border-wide criminal 
intelligence-led interdiction operations; and addresses transnational 
threats and associated violence.
    Over the last 10 years, DHS has significantly increased its border 
security capabilities by adding thousands of front-line law enforcement 
personnel, and making substantial investments in infrastructure, 
situational awareness, and surveillance technology, strategically 
deployed to areas of increasing challenge. This shift in border 
security resources and overall border security management is 
responsible for the significant decrease in the illegal flow of people 
across the Southwest Border over the last 10 years.
    USBP and AMO use a risk-based strategy to deploy resources and 
address emerging threats. In coordination with the new DHS joint 
requirements process, USBP uses the Capability Gap Analysis Process 
(CGAP) to conduct mission analysis and identify capability gaps. From 
this analysis, USBP performs follow-on planning to identify operational 
requirements over the short-, mid-, and long-term and to identify 
potential solutions, which may (or may not) include technology, 
tactical infrastructure, or other solutions depending on the nature, 
scope, severity, and geographic location of a given capability gap. 
Terrain, threat, and other considerations vary greatly across sectors 
and regions, making a ``one size fits all'' approach ineffective. The 
AMO CGAP process is in the developmental stage at this time. Once 
completed, it will interface with USBP processes to further identify 
aviation technology solutions targeting border security initiatives.
    As conditions on the ground or in the approaches change, CBP will 
adjust its operational posture and will continue to invest and focus 
border security resources in the most effective and efficient way 
possible to meet the Nation's border security needs.
                         indicators of success
    Thanks to this subcommittee's support, the Nation's long-term 
investment in border security continues to produce significant and 
positive results. Border Patrol apprehensions--an indicator of illegal 
entries--totaled 337,117 Nation-wide in fiscal year 2015, compared to 
486,651 in fiscal year 2014. This represents a 30 percent decline in 
the last year and almost 80 percent below its most recent peak in 
fiscal year 2000. CBP Officers and Agents also played a critical 
counter-narcotics role, resulting in the seizure or disruption of more 
than 3.3 million pounds of narcotics in fiscal year 2015. In addition, 
the agency seized more than $129 million in unreported currency through 
integrated counter network operations. In fiscal year 2015, AMO 
contributed to the arrest of 4,485 suspects, the apprehension of more 
than 51,130 individuals, and the interdiction of more than 213,000 
pounds of cocaine.
    USBP uses the Consequence Delivery System (CDS) on the Southwest 
Border as a means to standardize decision making in the application of 
consequences and examines the efficiency and effectiveness of 
individual consequences on various types of deportable aliens. 
Recidivism and the average number of apprehensions per recidivist are 
the strongest indicators of CDS effectiveness. Since CDS implementation 
in fiscal year 2011, the annually reported recidivism rate has 
decreased from an average of 27 percent to 14 percent in fiscal year 
2015 and average apprehensions per recidivist decreased from 2.71 to 
2.38 in fiscal year 2015. Contributing factors to the reduction 
included reducing the percent of apprehensions resulting in a Voluntary 
Return, the least effective and efficient consequence, from 59 percent 
in fiscal year 2010 to 4 percent in fiscal year 2015; and applying more 
effective and efficient consequences to illegal aliens with a higher 
probability of making subsequent illegal entries.
    CBP reports on several performance measures, in accordance with the 
Government Performance and Results (GRPA) Act of 1993 and the 2010 GPRA 
Modernization Act, and we are committed to the on-going monitoring and 
reporting of program accomplishments and progress toward meeting 
mission goals. AMO reports annually on a GPRA metric that tracks the 
percent of detected conventional aircraft incursions resolved along all 
borders of the United States. In fiscal year 2015, AMO reported a 99.3 
percent border security success rate for this metric.
    CBP recognizes the need for relevant performance measures to verify 
the effectiveness of our operations and assets. However, due to the 
sheer size of the air, land, and sea borders, and the motivation of 
individuals to illegally enter the United States, challenges still 
exist to measure our success. Furthermore, as border security 
operations become increasingly integrated, the ability to quantify 
individual contributions to shared outcomes becomes increasingly 
complex. AMO and USBP will continue to collaborate with internal and 
external partners to enhance current metrics, and develop new metrics, 
that provide meaningful outcome-focused measurements of illegal 
activity, trends, and effectiveness. We look forward to sharing these 
efforts with this subcommittee in the future.
                               conclusion
    To fully implement the risk-informed, counter network/intelligence-
driven operations that focus our capabilities against the highest 
threats, CBP continually evaluates its effectiveness and enhances 
situational awareness and adjusts its resources as required.
    The continued deployment of sophisticated fixed and mobile 
surveillance systems, in conjunction with intelligence and operational 
integration, enhances situational awareness and better enables CBP to 
plan effectively, enhance its agility, and appropriately respond to 
threats in the Nation's border regions and approaches to secure the 
homeland.
    Chairwoman McSally, Ranking Member Vela, thank you for the 
opportunity to testify today. We look forward to your questions.

    Ms. McSally. Thank you, Chief Vitiello.
    The Chair now recognizes General Alles for 5 minutes.

STATEMENT OF MAJ. GEN. RANDOLPH D. ``TEX'' ALLES, (RET.-USMC), 
   EXECUTIVE ASSISTANT COMMISSIONER, U.S. CUSTOMS AND BORDER 
        PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Alles. Good morning, Chairman McSally and Ranking 
Member Higgins and distinguished Members of the subcommittee. 
It is an honor to appear before you today to discuss the role 
of the U.S. Customs and Border Protection's Air and Marine 
Operations.
    AMO is participating in the securing of our Nation's 
borders. We are a critical component of CBP's border security 
mission. We secure our Nation from transnational threats, 
including terrorism, weapons and drug smuggling, and other 
illicit activities to our 4 core competencies--interdiction, 
investigation, domain awareness, and contingencies in National 
taskings. Based at our 74 locations Nation-wide, AMO detects 
and interdicts the unlawful movement of people, illegal drugs, 
and contraband toward and across the air border and the 
maritime approaches and within the Nation's interior.
    Our greatest asset is our people, from front-line to 
support personnel. Of note is our cadre of experienced agents. 
Our air and marine agents average 17 years of experience; 63 
percent are military veterans. I am sure the entire committee 
can understand the importance of experienced pilots. But the 
Chairman, I think, as an aviator, you, in particular, will 
appreciate that our air interdiction agents average over 5,000 
hours of total flight time.
    These agents are trained and empowered to conduct 
investigations, serve warrants, and make arrests under a broad 
range of authorities. They operate a fleet of specially-
equipped aircraft, marine patrol and interdiction vessels, and 
an array of advanced surveillance technologies.
    Much of our effort is aimed toward border security. We flew 
the majority of our flight hours in fiscal year 2015 in close 
partnership with the U.S. Border Patrol.
    We are having an impact. For instance, as we increased our 
flight hours in Arizona over the last 3 years, we have seen a 
corresponding decrease in apprehensions. Across our entire 
program, AMO contributed to more than 4,000 arrests, 50,000 
apprehensions, the interdiction of 230,000 pounds of cocaine, 
and the seizure of $49 million in fiscal year 2015.
    We also participate in joint operations with a variety of 
Federal partners. It includes the Coast Guard, the United State 
Navy. We conduct counternarcotic operations in the southeast 
coastal and source and transit zones of Central and South 
America.
    We are the leading provider of airborne detection and 
monitoring to the Joint Interagency Task Force-South, based out 
of Key West. We also provide direct assistance to partner 
nations with shared interest in border security, most notably 
Mexico and Canada.
    AMO has been extensively involved in planning and 
development of all three of the DHS Southern Border and 
Approaches Campaign JTF, Joint Task Force. In particular, AMO 
holds a deputy director's position with Joint Task Force-East 
in Portsmouth, Virginia, which is responsible for the southeast 
maritime approaches to the United States.
    Air and Marine agents also bring their unique skill sets 
and knowledge of the air and maritime environment to various 
regional task forces, such as ICE-led Border Enforcement 
Security Task Force, more commonly called BEST. AMO operates 
the Air and Marine Operations Center in Riverside, California, 
a state-of-the-art law enforcement domain awareness center. 
AMOC uses advanced surveillance systems and intelligence 
databases to detect threats to the homeland and coordinate 
their interdiction. In fiscal year 2015, AMOC evaluated almost 
half a million air tracks with a 99.99 successful resolution 
rate.
    Over the last 10 years, AMO has aligned and deployed our 
limited resources in response to regional illegal activity with 
the focus on increasing effectiveness. Our approach is not only 
informed by analysis of trends in illegal activity, but also an 
assessment of our assets' effectiveness and rate of return. 
This method informs our effective use of personnel in our 
diverse mission sets. Implementing this concept is critical to 
the effective use of resources Congress and the American people 
have come to expect from Air and Marine Operations.
    Moving forward, we will continue to work with our partners 
to enhance our detection, investigation, and interdiction 
capabilities to address emerging threats and to protect 
American security interests along the Nation's borders in 
source and transit zones, in our customs waters, and within the 
Nation's interior.
    Chairman McSally, Ranking Member Higgins, and distinguished 
Members of the subcommittee, thank you for this opportunity to 
testify today. I look forward to answering your questions.
    Ms. McSally. Thank you, General Alles.
    The Chair now recognizes Ms. Gambler for 5 minutes.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
     JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good morning, Chairman McSally, Ranking Member 
Higgins, and Members of the subcommittee. I appreciate the 
opportunity to testify at today's hearing to discuss GAO's work 
on Department of Homeland Security actions to deploy resources 
and measure progress in its efforts to secure U.S. borders.
    Today, I will focus my remarks on 2 key areas in which GAO 
has assessed DHS's efforts to secure our Nation's borders. 
First, I will highlight our work reviewing DHS efforts to 
deploy resources to the Southwest Border and to measure the 
effectiveness of those resources. Second, I will discuss GAO's 
work reviewing DHS performance measures for achieving 
situational awareness and border security.
    With regard to my first point, DHS has deployed agents in a 
variety of technological, tactical, and other resources to the 
Southwest Border. For example, between fiscal years 2004 and 
2015, Border Patrol increased the number of agents on the 
Southwest Border from about 9,000 to over 17,000. CBP has also 
made progress toward deploying programs under the Arizona 
Border Surveillance Technology Plan, including fixed and mobile 
surveillance systems, agent portable devices, and ground 
sensors, and these technologies have aided CBP's border 
security efforts.
    While these resource deployments have been positive, CBP 
could do more to strengthen its management of Southwest Border 
security resources and better assess the contributions of these 
resources to border security efforts. For example, CBP has 
identified the mission benefits of surveillance technologies, 
such as improved situational awareness and agent safety. CBP 
has already begun requiring Border Patrol to record data within 
its database on whether or not an asset, such as a camera, 
assisted in an apprehension or seizure.
    These are positive steps toward helping CBP assess the 
contributions of its surveillance technologies to border 
security. However, CBP needs to develop and implement 
performance measures and analyze data it is now collecting to 
be able to fully assess the contributions of its technologies 
to border security.
    Further, with regard to air and marine assets, in 2012 we 
reported that Air and Marine Operations could better ensure 
that its mix and placement of assets were effective and 
efficient by, for example, more clearly linking deployment 
decisions to mission needs and threats, documenting analyses 
used to support decisions on the mix and placement of assets, 
and considering how deployments of border technology affect 
requirements for air and marine assets at cross locations. We 
found that these steps were needed to help CBP better determine 
the extent to which its allocation decisions were effective in 
addressing customer needs and threats.
    With regard to my second point, Border Patrol has not yet 
fully developed goals and measures for assessing efforts and 
identifying resource needs to secure the border. Through fiscal 
year 2010, DHS's goal and measure for border security was 
operational control, defined as the ability to detect, respond 
to, and address cross-border illegal activity across all U.S. 
border miles.
    After this time, DHS transitioned to using the number of 
apprehensions on the Southwest Border between ports of entry as 
an interim performance goal and measure. We previously reported 
that this measure provided some useful information but did not 
position the Department to be able to report on how effective 
its efforts were at securing the border, resulting in reduced 
oversight and accountability.
    DHS has discontinued use of these measures and has begun 
using other measures, such as the rate of recidivism and the 
rate of effectiveness in responding to illegal activity. The 
Border Patrol is also in the process of developing other goals 
and measures. However, it has not yet set target time frames 
for completing its efforts across all borders, as we have 
recommended.
    While DHS is working to address our recommendations, until 
new goals and measures are in place, it is unknown the extent 
to which they will address our past findings and provide DHS 
and Congress with information to more fully assess CBP's 
efforts to secure the border between ports of entry.
    In closing, our work has identified opportunities for DHS 
to strengthen its border security programs and efforts. We have 
made a number of recommendations to the Department to address 
various challenges and to enhance management and oversight of 
border security-related efforts. DHS has generally agreed with 
our recommendations and is taking action to address them, and 
we will continue to monitor DHS's efforts in these areas.
    This concludes my oral statement, and I am pleased to 
answer any questions members have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                             March 1, 2016
                             gao highlights
    Highlights of GAO-16-465T, a testimony before the Subcommittee on 
Border and Maritime Security, Committee on Homeland Security, House of 
Representatives.
Why GAO Did This Study
    The Southwest Border continues to be vulnerable to cross-border 
illegal activity, with DHS apprehending over 331,000 illegal entrants, 
and making over 14,000 seizures of drugs in fiscal year 2015. DHS has 
employed a variety of resources to help secure the border, including 
personnel, technology--such as cameras and sensors, tactical 
infrastructure--such as fencing and roads, and air and marine assets.
    This statement discusses: (1) DHS efforts to deploy resources on 
the Southwest Border and measure the effectiveness of these resources 
in securing the border, and (2) DHS efforts to develop performance 
goals and measures for achieving situational awareness and border 
security. This statement is based on GAO reports and testimonies issued 
from September 2009 through May 2015, with selected updates through 
February 2016 on DHS enforcement efforts and actions to address prior 
GAO recommendations. To conduct the updates, GAO interviewed agency 
officials and reviewed related documentation.
What GAO Recommends
    GAO previously made recommendations for DHS to, among other things, 
(1) strengthen its management of technology plans and programs and (2) 
establish milestones and time frames for the development of border 
security goals and measures. DHS generally agreed and has actions 
underway to address the recommendations.
    southwest border security.--additional actions needed to assess 
                    resource deployment and progress
What GAO Found
    U.S. Customs and Border Protection (CBP), within the Department of 
Homeland Security (DHS), has taken action to deploy various resources--
including agents and technology--along the Southwest Border and assess 
those resources' contributions to border security. For example, in 
December 2012, GAO reported that CBP's Border Patrol scheduled agents 
for deployment differently across Southwest Border locations, and 
although in most locations less than half of Border Patrol 
apprehensions were made within 5 miles of the border in fiscal year 
2011, Border Patrol had moved overall enforcement efforts closer to the 
border since the prior fiscal year. GAO also reported in December 2012, 
that Border Patrol tracked changes in the effectiveness rate for 
response to illegal activity across border locations to determine if 
the appropriate mix and placement of personnel and assets were deployed 
and used effectively, and took steps to improve the data quality issues 
that had precluded comparing performance results across locations at 
the time of GAO's review. For example, Border Patrol issued guidance in 
September 2012 for collecting and reporting data with a more 
standardized and consistent approach. DHS has reported the 
effectiveness rate as a performance measure in its fiscal year 2015-
2017 Annual Performance Report.
    Further, in March 2014, GAO reported that CBP had made progress in 
deploying programs under the Arizona Border Surveillance Technology 
Plan, but that CBP could strengthen its management and assessment of 
the plan's programs. GAO reported that while CBP had identified mission 
benefits of technologies to be deployed under the plan, the agency had 
not developed key attributes for performance metrics to identify the 
technologies' individual and collective contribution, as GAO had 
recommended in 2011. GAO also reported in 2014 that CBP officials 
stated that baselines for each performance measure would be developed 
and that by the end of fiscal year 2016, CBP would establish a tool to 
explain the impact of technology and infrastructure on situational 
awareness in the border environment. CBP should complete these actions 
in order to fully assess its progress in implementing the plan and 
determine when mission benefits have been fully realized.
    In December 2012, GAO reported on Border Patrol's efforts to 
develop performance goals and measures for assessing the progress of 
efforts to secure the border between ports of entry and informing the 
identification and allocation of border security resources. GAO 
reported that DHS had transitioned from a goal and measure related to 
the capability to detect, respond to, and address cross-border illegal 
activity to an interim performance goal and measure of apprehensions 
between the land border ports of entry beginning fiscal year 2011. GAO 
reported that this interim goal and measure did not inform program 
results or resource identification and allocation decisions, limiting 
DHS and Congressional oversight and accountability. DHS concurred with 
GAO's recommendation that CBP develop milestones and time frames for 
the development of border security goals and measures and Border Patrol 
works to define a new overarching performance goal for achieving a low-
risk border and develop associated performance measures. CBP should 
complete these actions in order to fully assess its capabilities and 
progress to secure the border.
    Chairman McSally, Ranking Member Vela, and Members of the 
subcommittee: I am pleased to be here today to discuss our past work 
reviewing actions taken by the Department of Homeland Security (DHS) to 
deploy resources at the Southwest Border, and the extent that DHS 
measures the effectiveness of these deployed resources to improve 
situational awareness and achieve a more secure border. The Southwest 
Border continues to be vulnerable to cross-border illegal activity, and 
DHS reported apprehending over 331,000 illegal entrants and making over 
14,000 seizures of drugs in fiscal year 2015.
    The U.S. Border Patrol (Border Patrol), within DHS's U.S. Customs 
and Border Protection (CBP), is the Federal agency with primary 
responsibility for securing the border between the U.S. ports of 
entry.\1\ CBP has divided geographic responsibility for the Southwest 
Border among 9 Border Patrol sectors.\2\ Border Patrol's 2004 National 
Border Patrol Strategy (2004 Strategy), developed following the 
terrorist attacks of September 11, 2001, was designed to facilitate the 
build-up and deployment of border resources to ensure the agency had 
the right mix of personnel, technology--such as cameras and sensors, 
and tactical infrastructure--such as fencing, roads, and lighting and 
to deploy those resources in a layered approach at the immediate border 
and in other areas distant from the border. Since fiscal year 2004, the 
first full fiscal year DHS was in operation, the number of agents 
assigned to patrol U.S. Southwest land borders increased from about 
9,500 to about 17,500 agents near the end of fiscal year 2015.\3\ In 
addition to personnel, DHS has employed a variety of technology, 
tactical infrastructure, and air and marine assets to assist with its 
efforts to secure the border. For example, in November 2005, DHS 
announced the launch of the Secure Border Initiative (SBI) program, 
which was responsible for developing a comprehensive border protection 
system using technology, known as the Secure Border Initiative Network 
(SBInet), and tactical infrastructure along the Southwest Border to 
deter smugglers and aliens attempting to illegally cross the border. In 
January 2011, in response to internal and external assessments that 
identified concerns regarding the performance, cost, and schedule for 
implementing the systems, the Secretary of Homeland Security announced 
the cancellation of further procurements of SBInet systems. After the 
cancellation of SBInet, under which CBP deployed surveillance systems 
along 53 of the 387 miles of the Arizona border with Mexico, CBP 
developed the Arizona Border Surveillance Technology Plan (the Plan) in 
January 2011, which includes a mix of radars, sensors, and cameras to 
help provide security for the remainder of the Arizona border. 
Moreover, we reported in 2011 that DHS continued to deploy other 
tactical infrastructure along the Southwest Border, and CBP's Air and 
Marine Operations (AMO)--formerly known as the Office of Air and 
Marine--operates a fleet of air and marine assets in support of Federal 
border security efforts.
---------------------------------------------------------------------------
    \1\ Ports of entry are facilities that provide for the controlled 
entry into or departure from the United States. Specifically, a port of 
entry is any officially designated location (seaport, airport, or land 
border location) where DHS officers or employees are assigned to clear 
passengers and merchandise, collect duties, and enforce customs laws, 
and where a person may apply for admission into the United States 
pursuant to U.S. immigration law.
    \2\ Each of the 9 Border Patrol sectors has a headquarters with 
management personnel and these sectors are further divided 
geographically into varying numbers of stations, with agents assigned 
to patrol-defined geographic areas.
    \3\ Border Patrol reported agent staffing statistics for on-board 
personnel as of September 19, 2015.
---------------------------------------------------------------------------
    Through fiscal year 2010, these resources were used to support 
DHS's goal to achieve ``operational control'' of the Nation's borders 
by reducing cross-border illegal activity. The extent of operational 
control--also referred to as effective control--was defined as the 
number of border miles where Border Patrol had the capability to 
detect, respond to, and interdict cross-border illegal activity. In May 
2012, Border Patrol issued the 2012-2016 Border Patrol Strategic Plan 
(2012-2016 Strategic Plan), stating that the build-up of its resource 
base and the operations conducted over the past 2 decades would enable 
the Border Patrol to focus on mitigating risk rather than further 
increasing resources to secure the border. This new strategic plan, 
with a goal to achieve a low-risk border, emphasized using intelligence 
information to inform risk relative to threats of cross-border 
terrorism, drug smuggling, and illegal migration across locations; 
integrating border security operations with those of other law 
enforcement partners; and developing rapid response capabilities to 
deploy the resources appropriate to changes in threat.
    Over the years, we have reported on the progress and challenges DHS 
faces in implementing its border security efforts. My statement 
discusses our key findings in the areas of: (1) DHS efforts to deploy 
agents, technology, tactical infrastructure, and air and marine assets 
on the Southwest Border and measure the effectiveness of these 
resources in securing the border, and (2) DHS performance measures for 
achieving situational awareness and border security.
    My statement today is based on reports and testimonies we issued 
from September 2009 through May 2015 that examined DHS efforts to 
enhance border security and assess the effectiveness of its border 
security operations on the Southwest Border (see Related GAO Products 
at the end of this statement). It also includes selected updates we 
conducted through February 2016 on DHS enforcement efforts and actions 
to address our previous recommendations. Our reports and testimonies, 
as well as the selected updates, incorporated information we obtained 
by examining CBP's management of resources; analyzing Border Patrol 
planning and operational assessment documents; reviewing DHS's 
processes for measuring security at the Southwest Border; and 
interviewing relevant DHS officials. More detailed information about 
our scope and methodology can be found in our reports and testimonies. 
We conducted all of this work in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
    cbp has deployed resources to secure the southwest border, but 
      additional actions are needed to measure their effectiveness
Border Patrol Scheduled Agents Differently Across Sectors and 
        Enforcement Activities, and Took Steps to Improve Data 
        Measuring Overall Effectiveness
    In December 2012, we reported on Border Patrol's evolving approach 
for deploying agents along the Southwest Border.\4\ In that report we 
found that Border Patrol's 2004 Strategy provided for increasing 
resources and deploying these resources using an approach that provided 
for several layers of Border Patrol agents at the immediate border and 
in other areas 100 miles or more away from the border (referred to as 
defense in depth). According to the CBP officials we interviewed for 
our report, as resources increased, Border Patrol sought to move 
enforcement closer to the border over time to better position the 
agency to ensure the arrest of those trying to enter the country 
illegally. Additionally, headquarters and field officials said station 
supervisors determined: (1) Whether to deploy agents in border zones or 
interior zones, and (2) the types of enforcement or nonenforcement 
activities agents were to perform.\5\ Similarly, Border Patrol 
officials from the 5 sectors we visited stated that they used similar 
factors in making deployment decisions, such as intelligence showing 
the presence of threat across locations, the nature of the threat, and 
environmental factors including terrain and weather.
---------------------------------------------------------------------------
    \4\ GAO, Border Patrol: Key Elements of New Strategic Plan Not Yet 
in Place to Inform Border Security Status and Resource Needs, GAO-13-25 
(Washington, DC: Dec. 2012).
    \5\ Within the Border Patrol station areas, ``border zones'' are 
those with land directly on the U.S.-Mexico border, and ``interior 
zones'' are without international border miles. Enforcement activities 
include, for example, patrolling the border and traffic checks, while 
nonenforcement activities include, for example, remote-video 
surveillance, facility maintenance, and training.
---------------------------------------------------------------------------
    We reported in December 2012 on Border Patrol data from fiscal year 
2011 that showed how agent workdays were scheduled and found 
differences across sectors in the percentage of agent workdays 
scheduled for border zones and interior zones and across enforcement 
and nonenforcement activities. Specifically, we found that while Tucson 
sector scheduled 43 percent of agent workdays to border zones in fiscal 
year 2011, agent workdays scheduled for border zones by other Southwest 
Border sectors ranged from 26 percent in the Yuma sector to 53 percent 
in the El Centro sector. Our analysis of agents deployed for 
enforcement compared to nonenforcement activities ranged from 66 
percent for Yuma sector to 81 percent in Big Bend sector.
    Border Patrol officials we interviewed attributed the variation in 
scheduling border zone deployment in fiscal year 2011 to differences in 
geographical factors among the Southwest Border sectors--such as 
varying topography, ingress and egress routes, and land access issues, 
and structural factors such as technology and infrastructure 
deployments--and stated that these factors affect how sectors operate 
and may preclude closer deployment to the border. Additionally, we 
found that many Southwest Border sectors have interior stations that 
are responsible for operations at some distance from the border, such 
as at interior checkpoints generally located 25 miles or more from the 
border, which could have affected their percentage of agent workdays 
scheduled for border zones. We have planned work to assess Border 
Patrol deployment and management of agents across the Southwest Border 
beginning later this year.
    We also reported in December 2012 that Border Patrol sector 
management used changes in various data over time to help inform 
assessment of its efforts to secure the border against the threats of 
illegal migration, smuggling of drugs and other contraband, and 
terrorism. These data showed changes in the: (1) Percentage of 
estimated known illegal entrants who are apprehended, (2) number of 
seizures of drugs and other contraband, and (3) number of apprehensions 
of persons from countries at an increased risk of sponsoring 
terrorism.\6\ In addition, apprehension and seizure data could be 
analyzed in terms of where they occurred relative to distance from the 
border as an indicator of progress in Border Patrol enforcement 
efforts. Border Patrol officials at sectors we visited, and our review 
of fiscal years 2010 and 2012 sector operational assessments, indicated 
that sectors historically used these types of data to inform tactical 
deployment of personnel and technology to address cross-border threats. 
Our analysis showed that in most Southwest Border sectors less than 
half of Border Patrol's apprehensions and seizures were made within 5 
miles of the border in fiscal year 2011. In Tucson sector, for example, 
47 percent of Border Patrol's apprehensions of illegal entrants, 38 
percent of the drugs and contraband seizures, and 8 percent of the 
apprehensions of aliens from special interest countries were within 5 
miles of the border. However, our analysis also showed that Border 
Patrol had moved overall enforcement efforts closer to the border since 
the prior fiscal year.
---------------------------------------------------------------------------
    \6\ These data also included the percentage of estimated known 
illegal entrants who are apprehended more than once (repeat offenders).
---------------------------------------------------------------------------
    Further, we reported that Border Patrol sectors and stations 
tracked changes in their overall effectiveness as a tool to determine 
if the appropriate mix and placement of personnel and assets were being 
deployed and used effectively and efficiently, according to officials 
from Border Patrol headquarters. Border Patrol calculated an overall 
effectiveness rate using a formula in which it added the number of 
apprehensions and ``turn backs'' in a specific sector and divided this 
total by the total estimated known illegal entries--determined by 
adding the number of apprehensions, turn backs, and ``got aways'' for 
the sector.\7\ Border Patrol views its border security efforts as 
increasing in effectiveness if the number of turn backs as a percentage 
of estimated known illegal entries has increased and the number of got-
aways as a percentage of estimated known illegal entries has decreased. 
In our December 2012 report, we analyzed apprehension, turn back, and 
got-away data from fiscal years 2006 through 2011 for the Tucson sector 
and found that while apprehensions remained fairly constant at about 60 
percent of estimated known illegal entries, the percentage of reported 
turn backs increased from about 5 percent to about 23 percent, while 
the percentage of reported got-aways decreased from about 33 percent to 
about 13 percent. As a result of these changes in the mix of turn backs 
and got-aways, our analysis of Border Patrol data using Border Patrol 
methodology for our report showed that the enforcement effort, or the 
overall effectiveness rate for Tucson sector, improved 20 percentage 
points from fiscal year 2006 to fiscal year 2011, from 67 percent to 87 
percent. Border Patrol data showed that the effectiveness rate for 
eight of the 9 sectors on the Southwest Border also improved from 
fiscal years 2006 through 2011, using Border Patrol methodology.
---------------------------------------------------------------------------
    \7\ Border Patrol defines estimated illegal entries as the total 
number of deportable aliens who were apprehended, in addition to the 
number of entrants who illegally crossed the border but were not 
apprehended either because they crossed back to Mexico--``turn 
backs''--or continued traveling to the U.S. interior and Border Patrol 
was no longer actively pursuing them--``got-aways.''
---------------------------------------------------------------------------
    At the time of our review in 2012, Border Patrol headquarters 
officials said that differences in how sectors defined, collected, and 
reported turn back and got-away data used to calculate the overall 
effectiveness rate precluded comparing performance results across 
sectors. They stated that each Border Patrol sector decided how it 
would collect and report turn back and got-away data, and as a result, 
practices for collecting and reporting the data varied across sectors 
and stations based on differences in agent experience and judgment, 
resources, and terrain. The ability to obtain accurate or consistent 
data using these identification sources depends on various factors, 
such as terrain and weather, according to Border Patrol officials. As a 
result of these data limitations, Border Patrol headquarters officials 
said that while they considered turn back and got-away data 
sufficiently reliable to assess each sector's progress toward border 
security and to inform sector decisions regarding resource deployment, 
they did not consider the data sufficiently reliable to compare--or 
externally report--results across sectors at the time we issued our 
report in December 2012.
    Border Patrol headquarters officials issued guidance in September 
2012 to provide a more consistent, standardized approach for the 
collection and reporting of turn back and got-away data by Border 
Patrol sectors. As we reported in 2012, Border Patrol officials 
expected that once the guidance was implemented, data reliability would 
improve. Since that time, DHS has reported the effectiveness rate in 
its fiscal year 2015-2017 Annual Performance Report as a performance 
measure and method to publicly report results of its border security 
efforts on the Southwest Border.
CBP Has Not Yet Fully Applied Performance Metrics or Assessed the 
        Contributions of its Deployed Surveillance Technologies and 
        Fencing
    In March 2014 and April 2015, we reported that CBP had made 
progress in deploying programs under the Arizona Border Surveillance 
Technology Plan, but that CBP could take additional action to 
strengthen its management of the Plan and its various programs.\8\ The 
Plan's acquisition programs include fixed and mobile surveillance 
systems, agent portable devices, and ground sensors. Specifically, we 
reported in March 2014 that CBP had identified the mission benefits of 
its surveillance technologies, as we recommended in November 2011.\9\ 
CBP had identified mission benefits of surveillance technologies to be 
deployed under the Plan, such as improved situational awareness and 
agent safety. However, we also reported that the agency had not 
developed key attributes for performance metrics for all surveillance 
technology to be deployed as part of the Plan, as we recommended in 
November 2011. As of May 2015, CBP had identified a set of potential 
key attributes for performance metrics for all technologies to be 
deployed under the Plan; however, CBP officials stated that this set of 
measures was under review as the agency continued to refine the 
measures to better inform the nature of the contributions and impacts 
of surveillance technology on its border security mission.\10\ While 
CBP had yet to apply these measures, CBP had established a time line 
for developing performance measures for each technology. In November 
2014, CBP officials stated that baselines for each performance measure 
were to be developed, at which time the agency was to begin using the 
data to evaluate the individual and collective contributions of 
specific technology assets deployed under the Plan. Moreover, CBP plans 
to establish a tool by the end of fiscal year 2016 that explains the 
qualitative and quantitative impacts of technology and tactical 
infrastructure on situational awareness in specific areas of the border 
environment. While these are positive steps, until CBP completes its 
efforts to address our recommendation and fully develop and apply key 
attributes for performance metrics for all technologies to be deployed 
under the Plan, it will not be able to fully assess its progress in 
implementing the Plan and determine when mission benefits have been 
fully realized.
---------------------------------------------------------------------------
    \8\ GAO, Arizona Border Surveillance Technology Plan: Additional 
Actions Needed to Strengthen Management and Assess Effectiveness, GAO-
14-368 (Washington, DC: Mar. 4, 2014), and Homeland Security 
Acquisitions: Major Program Assessments Reveal Actions Needed to 
Improve Accountability, GAO-15-171SP (Washington, DC: Apr. 22, 2015).
    \9\ GAO-14-368 and GAO, Arizona Border Surveillance Technology: 
More Information on Plans and Costs Is Needed before Proceeding, GAO-
12-22 (Washington, DC: Nov. 4, 2011).
    \10\ GAO, Border Security: Progress and Challenges in DHS's Efforts 
to Implement and Assess Infrastructure and Technology, GAO-15-595T 
(Washington, DC: May 13, 2015).
---------------------------------------------------------------------------
    Further, in March 2014, we found that CBP did not capture complete 
data on the contributions of these technologies, which in combination 
with other relevant performance metrics or indicators could be used to 
better determine the contributions of CBP's surveillance technologies 
and inform resource allocation decisions. Although CBP had a field 
within its Enforcement Integrated Database for data on whether 
technological assets, such as SBInet surveillance towers, and 
nontechnological assets, such as canine teams, assisted or contributed 
to the apprehension of illegal entrants and seizure of drugs and other 
contraband, according to CBP officials, Border Patrol agents were not 
required to record these data.\11\ This limited CBP's ability to 
collect, track, and analyze available data on asset assists to help 
monitor the contribution of surveillance technologies, including its 
SBInet system, to Border Patrol apprehensions and seizures and inform 
resource allocation decisions. We made two recommendations that: (1) 
CBP require data on asset assists to be recorded and tracked within its 
database; and that once these data were required to be recorded and 
tracked, (2) analyze available data on apprehensions and technological 
assists, in combination with other relevant performance metrics or 
indicators, as appropriate, to determine the contribution of 
surveillance technologies to CBP's border security efforts. CBP 
concurred with our recommendations and has implemented one of them. In 
June 2014, in response to our recommendation, CBP issued guidance 
informing Border Patrol agents that the asset assist data field within 
its database was now a mandatory data field. Agents are required to 
enter any assisting surveillance technology or other equipment before 
proceeding. As we testified in May 2015, to fully address our second 
recommendation, CBP needs to analyze data on apprehensions and 
seizures, in combination with other relevant performance metrics, to 
determine the contribution of surveillance technologies to its border 
security mission.
---------------------------------------------------------------------------
    \11\ In addition to maintaining data on asset assists, the Border 
Patrol collects and maintains data on apprehensions and seizures in 
DHS's Enforcement Integrated Database.
---------------------------------------------------------------------------
    In addition, with regard to fencing and other tactical 
infrastructure, CBP reported that from fiscal year 2005 through May 
2015, the total miles of vehicle and pedestrian fencing along the 
nearly 2,000-mile U.S.-Mexico border increased from approximately 120 
miles to 652 miles.\12\ With the completion of the new fencing and 
other tactical infrastructure, DHS is now responsible for maintaining 
this infrastructure including repairing breached sections of 
fencing.\13\ We have previously reported on CBP's efforts to assess the 
impact of tactical infrastructure on border security. Specifically, in 
our May 2010 and September 2009 reports, we found that CBP had not 
accounted for the impact of its investment in border fencing and 
infrastructure on border security.\14\ CBP had reported an increase in 
control of Southwest Border miles, but could not account separately for 
the impact of the border fencing and other infrastructure. In September 
2009, we recommended that CBP determine the contribution of border 
fencing and other infrastructure to border security.\15\ DHS concurred 
with our recommendation, and in response, CBP contracted with the 
Homeland Security Studies and Analysis Institute to conduct an analysis 
of the impact of tactical infrastructure on border security. We have 
on-going work for this subcommittee and others assessing CBP's 
deployment and management of tactical infrastructure, and we plan to 
report on the results of this work later this year.
---------------------------------------------------------------------------
    \12\ The length of the border with Mexico is defined by the U.S. 
International Boundary and Water Commission at 1,954 miles. The length 
of the land border is 675 miles, while the length of the border along 
the Colorado River and Rio Grande is 1,279 miles.
    \13\ CBP reported that maintaining the fence cost the Department at 
least $7.2 million in 2010.
    \14\ GAO, Secure Border Initiative: DHS Has Faced Challenges 
Deploying Technology and Fencing Along the Southwest Border, GAO-10-
651T (Washington, DC: May 4, 2010), and Secure Border Initiative: 
Technology Deployment Delays Persist and the Impact of Border Fencing 
Has Not Been Assessed, GAO-09-896 (Washington, DC: Sept. 9, 2009).
    \15\ GAO-09-896.
---------------------------------------------------------------------------
CBP Has Reassessed Its Mix and Placement of Air and Marine Assets to 
        Better Address Mission Needs and Threats
    Our March 2012 report on AMO assets highlighted several areas the 
agency could address to better ensure the mix and placement of assets 
is effective and efficient.\16\ These areas included: (1) Documentation 
clearly linking deployment decisions to mission needs and threats, (2) 
documentation on the assessments and analysis used to support decisions 
on the mix and placement of assets, and (3) consideration of how 
deployment of border technology will affect customer requirements for 
air and marine assets across locations.
---------------------------------------------------------------------------
    \16\ GAO, Border Security: Opportunities Exist to Ensure More 
Effective Use of DHS's Air and Marine Assets, GAO-12-518, (Washington, 
DC: Mar. 30, 2012).
---------------------------------------------------------------------------
    Specifically, we found that AMO had not documented significant 
events, such as its analyses to support its asset mix and placement 
across locations, and as a result, lacked a record to help demonstrate 
that its decisions to allocate assets were the most effective ones in 
fulfilling customer needs and addressing threats, among other things. 
While AMO's Fiscal Year 2010 Aircraft Deployment Plan stated that AMO 
deployed aircraft and maritime vessels to ensure its forces were 
positioned to best meet the needs of CBP field commanders and respond 
to the latest intelligence on emerging threats, AMO did not have 
documentation that clearly linked the deployment decisions in the plan 
to mission needs or threats.
    We also found that AMO did not provide higher rates of support to 
locations Border Patrol identified as high priority, a fact that 
indicated that a reassessment of AMO's resource mix and placement could 
help ensure that it meets mission needs, addresses threats, and 
mitigates risk. AMO officials stated that while they deployed a 
majority of assets to high-priority sectors, budgetary constraints, 
other National priorities, and the need to maintain presence across 
border locations limited overall increases in assets or the amount of 
assets they could redeploy from lower-priority sectors. While we 
recognized AMO's resource constraints, the agency did not have 
documentation of analyses assessing the impact of these constraints and 
whether actions could be taken to improve the mix and placement of 
assets within them. Thus, the extent to which the deployment of AMO 
assets and personnel, including those assigned to the Southwest Border, 
most effectively utilized AMO's constrained assets to meet mission 
needs and address threats was unclear.
    We further found in March 2012 that AMO did not document 
assessments and analyses to support the agency's decisions on the mix 
and placement of assets. DHS's 2005 aviation management directive 
requires operating entities to use their aircraft in the most cost-
effective way to meet requirements. Although AMO officials stated that 
it factored in cost-effectiveness considerations, AMO did not have 
documentation of analyses it performed to make these decisions. AMO 
headquarters officials stated that they made deployment decisions 
during formal discussions and on-going meetings in close collaboration 
with Border Patrol, and considered a range of factors such as 
operational capability, mission priorities, and threats. AMO officials 
said that while they generally documented final decisions affecting the 
mix and placement of assets, they did not document assessments and 
analyses to support these decisions.
    Finally, we reported that CBP and DHS had on-going interagency 
efforts under way to increase air and marine domain awareness across 
U.S. borders through deployment of technology that may decrease Border 
Patrol's use of AMO assets for air and marine domain awareness. 
However, at the time of our review, AMO was not planning to assess how 
technology capabilities could affect the mix and placement of air and 
marine assets until the technology has been deployed. Specifically, we 
concluded that Border Patrol, CBP, and DHS had strategic and 
technological initiatives under way that would likely affect customer 
requirements for air and marine support and the mix and placement of 
assets across locations--CBP and DHS also had on-going interagency 
efforts under way to increase air and marine domain awareness across 
U.S. borders through deployment of technology that may decrease Border 
Patrol's use of AMO assets for air and marine domain awareness. AMO 
officials stated that they would consider how technology capabilities 
affect the mix and placement of air and marine assets once such 
technology has been deployed.
    To address the findings of our March 2012 report, we recommended 
that CBP, to the extent that benefits outweigh the costs, reassess the 
mix and placement of AMO's air and marine assets to include mission 
requirements, performance results, and anticipated CBP strategic and 
technological changes. DHS concurred with this recommendation and 
responded that it planned to address some of these actions as part of 
the Fiscal Year 2012-2013 Aircraft Deployment Plan. In September 2014, 
CBP provided us this Plan, which was approved in May 2012, and updated 
information on its subsequent efforts to address this recommendation, 
including a description of actions taken to reassess the mix and 
placement of AMO's assets. According to AMO, after consulting with DHS 
and CBP officials and approval from the Secretary of Homeland Security 
in May 2013, the office began a realignment of personnel, aircraft, and 
vessels from the Northern Border to the Southern Border based on its 
evaluation of the utilization and efficiency of current assets and 
available funding to accomplish the transfers. In September 2015, AMO 
officials provided GAO with data and analysis documenting that 
personnel, aircraft, and vessels were in the process of being moved to 
support the realignment of assets, which addressed the intent of our 
recommendation.
 border patrol has not yet developed goals and measures for assessing 
efforts and identifying resource needs under the fiscal year 2012-2016 
                             strategic plan
    In December 2012, we reported on Border Patrol's efforts to develop 
performance goals and measures for assessing the progress of its 
efforts to secure the border between ports of entry and for informing 
the identification and allocation of resources needed to secure the 
border.\17\ We found that until fiscal year end 2010, DHS used Border 
Patrol's goal and performance measure of operational control as the 
publicly reported DHS goal and outcome measure for border security and 
to assess resource needs to accomplish this goal.\18\ We had previously 
testified in February 2011 that at the time this goal and measure was 
discontinued at the end of fiscal year 2010, Border Patrol reported 
achieving varying levels of operational control of 873 (44 percent) of 
the nearly 2,000 Southwest Border miles.\19\ Border Patrol officials 
attributed the uneven progress across sectors to multiple factors, 
including terrain, transportation infrastructure on both sides of the 
border, and a need to prioritize resource deployment to sectors deemed 
to have greater risk of illegal activity.
---------------------------------------------------------------------------
    \17\ See GAO-13-25.
    \18\ Border Patrol sector officials assessed the miles under 
operational control using factors such as operational statistics, 
third-party indicators, intelligence and operational reports, resource 
deployments, and discussions with senior Border Patrol agents.
    \19\ GAO, Border Security: Preliminary Observations on Border 
Control Measures for the Southwest Border, GAO-11-374T, Washington, DC: 
Feb. 15, 2011).
---------------------------------------------------------------------------
    DHS transitioned from using operational control as its goal and 
outcome measure for border security in its Fiscal Year 2010-2012 Annual 
Performance Report. Specifically, citing a need to establish a new 
border security goal and measure that reflected a more quantitative 
methodology as well as the Department's evolving vision for border 
control, DHS established the interim performance goal and measure of 
the number of apprehensions between the land border ports of entry 
until a new border control goal and measure could be developed. We 
testified in May 2012 that the interim goal and measure provided 
information on activity levels, but did not inform program results or 
resource identification and allocation decisions, and therefore, until 
new goals and measures could be developed, DHS and Congress could 
experience reduced oversight and DHS accountability.\20\ Further, 
studies commissioned by CBP documented that the number of apprehensions 
bore little relationship to effectiveness because agency officials did 
not compare these numbers with the amount of cross-border illegal 
activity.\21\
---------------------------------------------------------------------------
    \20\ GAO, Border Patrol Strategy: Progress and Challenges in 
Implementation and Assessment Efforts, GAO-12-688T (Washington, DC: May 
8, 2012).
    \21\ For example, see Homeland Security Institute, Measuring the 
Effect of the Arizona Border Control Initiative (Arlington, VA: Oct. 
18, 2005).
---------------------------------------------------------------------------
    In our December 2012 report, we found that Border Patrol was in the 
process of developing performance goals and measures for assessing the 
progress of its efforts to secure the border between ports of entry and 
for informing the identification and allocation of resources needed to 
secure the border, but had not identified milestones and time frames 
for developing and implementing them. According to Border Patrol 
officials, establishing milestones and time frames for the development 
of performance goals and measures was contingent on the development of 
key elements of the 2012-2016 Strategic Plan, such as a risk assessment 
tool, and the agency's time frames for implementing these key 
elements--targeted for fiscal years 2013 and 2014--were subject to 
change. Specifically, under the 2012-2016 Strategic Plan, the Border 
Patrol planned to continuously evaluate border security--and resource 
needs--by comparing changes in risk levels against available resources 
across border locations. Border Patrol officials stated that the agency 
was in the process of identifying performance goals and measures that 
could be linked to the new risk assessment tools that would show 
progress and status in securing the border between ports of entry, and 
determine needed resources, but had not established milestones and time 
frames for developing and implementing goals and measures because the 
agency's time frames for implementing key elements of the plan were 
subject to change.\22\
---------------------------------------------------------------------------
    \22\ Border Patrol officials stated that DHS and Border Patrol had 
established a performance goal--linked to relevant measures--addressing 
border security that, as of October 2012, was being used as an internal 
management indicator. However, a DHS official said it had not been 
decided whether this goal and the associated measures would be publicly 
reported or used as an overall performance goal and as measures for 
border security.
---------------------------------------------------------------------------
    We recommended in our December 2012 report that Border Patrol 
establish milestones and time frames for developing a: (1) Performance 
goal, or goals, for border security between the ports of entry that 
defines how border security is to be measured, and (2) performance 
measure, or measures--linked to a performance goal or goals--for 
assessing progress made in securing the border between ports of entry 
and informing resource identification and allocation efforts.\23\ DHS 
agreed with these recommendations and since our December 2012 report, 
has added performance measures for border security to its Annual 
Performance Report. In its Fiscal Year 2015-2017 Annual Performance 
Report, these measures included the percent of people apprehended 
multiple times on the Southwest Border and the rate of effectiveness in 
responding to illegal activity. Further, as part of its efforts to 
revise the Border Patrol strategic plan, Border Patrol has developed 
outcome measures for each of 14 objectives, and according to officials, 
Border Patrol continues to work toward the development of goals and 
measures to support its overarching performance goal of low-risk 
borders. Until these new goals and measures are in place, it is unknown 
the extent to which they will address our past findings and would 
provide DHS and Congress with information on the results of CBP efforts 
to secure the border between ports of entry and the extent to which 
existing resources and capabilities are appropriate and sufficient.
---------------------------------------------------------------------------
    \23\ GAO-13-25.
---------------------------------------------------------------------------
    Chairman McSally, Ranking Member Vela, and Members of the 
subcommittee, this completes my prepared statement. I would be happy to 
respond to any questions you or Members of the committee may have.

    Ms. McSally. Thank you, Ms. Gambler.
    I now recognize myself for 5 minutes for questions.
    I appreciate the testimony from all of our witnesses today. 
If we could just put up the display that I want to use just for 
reference.
    As I mentioned, one of the challenges we have is, to 
summarize, we have gone from a measurement of operational 
control in 2010, I know that is small, but where we basically 
said--you said 44 percent of the border was under operational 
control--abandoned that, went to apprehension numbers, which 
Ms. Gambler pointed out is that is just a numerator, right? 
That just tells you how many people you have apprehended 
without an understanding of the denominator.
    So now, as of a year ago, you are trying to do some level 
of denominator, which includes those that got away, right, 
those that you detected that got away. But if you look up here, 
again, at the display, I am just trying to simplify it, talking 
about situational awareness, if 100 people cross the border 
illegally, you are still measuring, as an example, if you 
detected 60 of them, you are measuring how many apprehended and 
how many got away or turned back of that 60. So that could come 
out to: Hey, we are at an 80 percent interdiction 
effectiveness.
    But the concern of this committee and the concern of my 
constituents is, what about the other 40? They are not included 
in the denominator at all because we don't necessarily know 
that it is even 40 of them. We don't know what that number is, 
right? So until we have a sense of true understanding of a 
denominator, we are not going to be able to know our 
effectiveness.
    Look, I am a fighter pilot. I am trying to simplify this as 
best I can, although I know it is kind-of complex. We have 
1,954 miles of the Southern Border. It seems to me you all 
could come back to us with an answer of: Of that 1,954 miles  
amount of miles we have situational awareness of. I don't know 
what that number. Is it 200? Is it 1,500? We know if anything 
moves across the border, we are going to detect it. We know 
exactly what is happening and we are going to detect it.
    Then the second piece is, can we actually intercept it? 
That is the effectiveness thing. The American people don't know 
what that number is. We don't know what that number is.
    So, Chief Vitiello, do you understand the challenges that 
we have with not really understanding the denominator? No. 2, 
can you tell me today, of the 1,954 miles, what percent do you 
feel you have 100 percent situational awareness of? What is 
that number?
    Mr. Vitiello. Thanks for that question. I won't sit here 
today and tell you that we know exactly what the denominator 
is. That is something that we have been trying to accomplish 
with regard to effectiveness.
    I am reminded of Eisenhower's words to the military that 
plans are useless but the effort of planning is essential 
because it puts your team in the place where they can rapidly 
adjust to changing circumstances.
    So what we have done over the last several years is signed 
ourselves up through the GPRA measures, which pinned into the 
foundation of the Government Performance Results Act, right, a 
requirement that Congress set for us. We looked at what was 
there that we could use, and we tried to strengthen our ability 
to measure effectiveness at the border. So when an agent has an 
encounter, when an entry is noticed, how many people are 
apprehended in that encounter, and what are the results of 
people who either ran back across the border or eventually got 
away.
    So I can't say that that is a perfect endeavor because it 
is done by human beings. What I can say is that we have a 
systematic protocol that allows agents to assess zone by zone, 
line by line at the border, talk about how many entries, record 
those entries, and then record the encounters as they see them 
in real time.
    There are lots of places, as you know, they are very rural, 
very remote, it is difficult for us to access the border. But 
what we try to do is we have a systematic way of recording 
entries and then subtracting what happens after the encounters, 
either got away, turned back, or apprehended. Then we put that 
math together and we sign ourselves up for the effectiveness 
rate.
    Ms. McSally. I get that. That is all in the bottom part of 
that bracket there. That is you trying to adequately measure 
those that you have detected, have you intercepted them or did 
they get away, right?
    Mr. Vitiello. Right. But there is an assessment line for 
every part of the border. It is not just the entries that we 
see or know about. There are places where we can see entries in 
real time because of the deployment, because of the fixed 
towers, because of the mobile technology that agents have, 
their own observations, they are at the line and they see 
people come across. So all of that activity is recorded, the 
ones that are seen and the ones that are not seen but have left 
evidence of the entry.
    Ms. McSally. Right. But that is still all in the 
denominator there or in the bottom part of the bracket there. 
You said you were at 81 percent effectiveness rate last year, 
right, based on that analysis?
    Mr. Vitiello. What we do for the recording, yes, that gets 
us to 81 percent for the year.
    Ms. McSally. But do you have any sense of what the real 
denominator is?
    Mr. Vitiello. Not perfectly.
    Ms. McSally. Okay. Of the 1,954 of the Southern Border, can 
you give us a sense of what percentage or what number of miles 
you feel you have situational awareness to the point that if 
something comes across, you know it, you may not be able to 
intercept it, but you know it?
    Mr. Vitiello. So about 56 percent of the border is--we 
kind-of segment the border into 2 specific categories. Of all 
the things that we do, not just on the effectiveness rate but 
all the things we are trying to record, about 56 percent of the 
border is deployed in a way that agents and/or our technology 
can see activity in real time.
    Ms. McSally. Okay. Fifty-six percent. Thank you.
    Ms. Gambler, was my line of questioning, do you have 
anything to add to that to provide our situational awareness?
    Ms. Gambler. Sure. I think a couple of things. I think the 
situational awareness piece is very important in terms of being 
able to get a sense of the reliability of the information and 
the measures that CBP does report out, that Border Patrol does 
report out.
    The other thing that I would add in terms of the measures 
is, in thinking about the interdiction effectiveness rate that 
Border Patrol is using now, as we have reported, it is 
important not just to kind of look at what the percentage is, 
whether it is 81 percent or something else, but also to look at 
sort-of the makeup of that interdiction effectiveness rate, 
because Border Patrol is counting in the numerator 
apprehensions plus turn-backs.
    So, as we have reported in the past, differences and 
changes in turn-backs and got-aways over time can have an 
impact on what that ultimate interdiction effectiveness rate 
is. So in some of our past work, we have reported on not just 
the effectiveness rate, but also the apprehension rate, which 
is looking at how many arrests Border Patrol actually makes 
relative to the overall estimated known illegal entries.
    Ms. McSally. Great. My time is up. But part of the 
numerator of their effectiveness rate includes those like 
unaccompanied children and people who have turned themselves in 
at the border. They haven't necessarily been apprehended, 
right, they have just turned themselves in. That is part of the 
numerator, Chief?
    Mr. Vitiello. We record all the encounters and all the----
    Ms. McSally. But is that part of your effectiveness 
numerator?
    Mr. Vitiello. It would be in part of that math, yes.
    Ms. McSally. Okay. Great. My time has well expired. So I 
want to now recognize the Ranking Member, Mr. Higgins.
    Mr. Higgins. Thank you.
    Chief Vitiello, the concerns of the Southern Border deal 
primarily with illegals coming in and drug smuggling. What do 
you see are the major challenges in terms of the Northern 
Border and potential threats, existing or emerging?
    Mr. Vitiello. So our concerns on the Northern Border are 
the same in the sense that you want situational awareness. You 
want to understand what is happening. You want to know what the 
trends are. The challenge is understanding what the criminal 
networks are doing and how they are trying to defeat border 
enforcement and border security.
    I think the biggest challenge is there is lots of open 
space. Like what we talked about earlier, there is 56 percent 
on the Northern Border. The other 44 percent is covered by 
technology. So the Air and Marine Operations flies on our 
behalf the UAS that can give us an assessment of the border in 
those locations where the deployment isn't dense enough to see 
activity in real time. On the Northern Border, that is more 
common than it is on the Southern Border.
    So the challenge is, is being in the right places. That has 
to be informed by intelligence. We do have ways to overcome 
that. We have good collaboration amongst the DHS entities on 
the Northern Border, amongst the State and local law 
enforcement on the Northern Border, as well as a robust 
relationship with Canada, both on the law enforcement and the 
intelligence side.
    Mr. Higgins. Any new or emerging threats, any troubling 
trends that have been detected within the last 18 months or so?
    Mr. Vitiello. So we are constantly looking at things. There 
has been some activity of people going from the United States 
into Canada. So it is a good relationship with us and the RCMP 
on that particular facet. Then we are concerned about people 
who are in Canada that may be ideologically aligned with the 
threats that the Nation faces writ large.
    Mr. Higgins. Any change in cross-border relations with 
respect to the new government in Canada?
    Mr. Vitiello. No, we are still doing the same kind--we 
still have set up the same constructs, the same liaison, the 
same interaction.
    Mr. Higgins. How would you characterize that relationship?
    Mr. Vitiello. It is very good.
    Mr. Higgins. Okay.
    In a previous hearing, it was disclosed that Hezbollah, 
that acts as a proxy for Iran, a Shia terrorist group, had a 
presence in North America in some 15 cities, including 2 major 
cities in Canada. Are you aware of that presence? We were told 
at the time that we shouldn't be all that concerned because 
Hezbollah's activity was limited to fundraising. Well, a 
terrorist organization that is doing fundraising within the 
United States and Canada is, to me, a very troubling sign. Do 
you have any thoughts on that, awareness of it?
    Mr. Vitiello. So that is something that we are aware of. 
Obviously, the terrorist threat is the one that is primary for 
the Department and CBP, as well as the Border Patrol. So that 
interaction with our counterparts in Canada, and then improving 
our awareness and our ability to detect trends and changes to 
include what cultural support exists for those kind of things 
in Canada.
    Mr. Higgins. So the Southern Border, what is the linear 
miles of the Southern Border?
    Mr. Vitiello. It is nearly 2,000.
    Mr. Higgins. Two thousand. And 5,000 miles of Northern 
Border with Canada?
    Mr. Vitiello. Correct.
    Mr. Higgins. There are currently approximately 20,000 
Border Patrol agents and about 1,000 Air and Marine 
interdiction agents on board?
    Mr. Vitiello. Yes.
    Mr. Higgins. Okay. Of those totals, how many are deployed 
along the Northern Border in terms of either numbers of 
percentages?
    Mr. Vitiello. So we are in the range on the Northern Border 
for Border Patrol agents of about somewhere in the neighborhood 
of 2,000, 1,900 to 2,000.
    Mr. Higgins. So that is about 10 percent.
    Mr. Vitiello. Ten percent.
    Mr. Higgins. Ten percent. Is that adequate?
    Mr. Vitiello. So it is something that we constantly look 
at. Obviously, if you speak to the chief that is in Buffalo, 
Brian Hastings, he will ask for more resources. It is something 
that we look at carefully to make sure that they are equipped 
to do what we are asking them to do.
    Mr. Higgins. Is it safe to say that any additional 
resources in terms of agents that you would be requesting in 
the future, 90 percent of those would go to the Southern Border 
and 10 percent would go to the Northern Border?
    Mr. Vitiello. So what we want to do is we want to resource 
to the threat and the risk. So, yes, that is primary for us, 
the Southwest Border, and then as needed on the Northern 
Border.
    Mr. Higgins. All right. I see my time is expiring. I will 
yield back.
    Ms. McSally. Thanks. We should probably have another round 
if you want a little more. So thanks.
    The Chair now recognizes my colleague and the Vice Chair of 
the subcommittee here, Mr. Hurd from Texas, for 5 minutes.
    Mr. Hurd. Thank you, Madam Chairman.
    My first question, I am going to go specific and get more 
general. First off, thanks for being here. You all three have a 
very difficult job. I represent over 800 miles of the border, 
and I know the men and women in Border Patrol, what they are 
doing in order to keep us safe.
    My first question is, with only 56 of the almost 2,000 
miles of the Southern Border being under operational control, I 
want to join my Governor, Governor Abbott, and our colleague 
from Texas, Congressman Cuellar, in asking why was a 50 percent 
cut made for flight hours in support of Operation Phalanx 
despite full funding for the number of flight hours that were 
requested, and this while the number of migrant crossings have 
increased?
    I think, General Alles, it would probably be best for you. 
Can you provide some clarity?
    Mr. Alles. Sure. I think, first off, what I would comment 
on is the Department of Defense has overall been shifting away 
from nontraditional missions. So while their budget has shrunk 
by $110 billion here over the past 4 years, and we have seen 
them move away from transit zone missions, the Tethered 
Aerostat Radar System was passed to DHS, if we wanted to 
continue to operate it, we would have to take it on board. So 
they moved away from these nontraditional mission sets.
    In the mean time, as they are doing that, we are upping our 
participation, our flight hours in the south Texas area. So it 
increased our personnel by 50 percent in the McAllen-Laredo 
area and it added 83 percent to our flight hours. So most of 
the delta that you would lose in Phalanx, we were making up in 
Air and Marine Operations. We will continue to up those rates 
inside Laredo and McAllen as the years go on. So we are 
actually adding hours to our program to make up for those.
    Mr. Hurd. So just so I am clear, DHS is increasing the 
number of organic operations to take over the change in the 
Operation Phalanx.
    Mr. Alles. That is correct, yes, sir.
    Mr. Hurd. So would some of that money need to be 
reprogrammed directly to DHS?
    Mr. Alles. I mean, clearly, I will be happy to take 3,800 
more flight hours, if that is the question, sir.
    Mr. Hurd. The other question you hit on, and, Chief, 
probably this question is best directed at you, there is a gap 
in the number of bodies you can hire and what you have hired. 
Is that correct?
    Mr. Vitiello. Yes. It is somewhere in the range of 1,200 
agents down from the authorized staffing level.
    Mr. Hurd. If you can give me a 30-second snapshot on what 
is being done to try to fill that void.
    Mr. Vitiello. So a robust recruitment effort, lots of 
reengineering in the hiring process, and trying to let people 
know that we are hiring and get folks out there. We are working 
with DOD on using some of their transition centers and do hub 
hiring with folks that are transitioning out of the military. 
So we are in those locations. Then we are hubbing some of the 
hiring processes in which we take the 5 or 6 steps that can all 
be done in a couple of days at locations, we are trying to do 
that as well.
    Mr. Hurd. If there is a need to help streamline that 
process and this body can be helpful, please let us know. 
Because this gets to another issue about, there have been a 
number of reports, both by Border Patrol, the OIG, independent 
groups, that highlight some rough conditions, some would say 
deplorable, at forward operating bases that are being used by 
agents, cases of E. coli in the drinking water, lack of 
maintenance and repairs.
    Can you tell us what is being done to address these cases 
that were brought up in the OIG report from last month?
    Mr. Vitiello. So we are well aware and commented and 
accepted the recommendations from OIG to get those facilities 
in a condition that we expect them to be. If we are going to 
expect agents to deploy in those locations, we want them to be 
safe and healthy while they are doing it.
    Mr. Hurd. Can you talk to me about the rate of recidivism 
and how that is a more--why you decided to start using that as 
a metric of effectiveness along the border?
    Mr. Vitiello. So we think it matters when we classify the 
arrests individually, right, do people have a prior criminal 
record, do they have a prior immigration history, and how many 
times they have crossed the border previously. So we think that 
if we are concentrated on what we do post-arrest, we have a 
system called a Consequence Delivery System which looks at the 
classification, tells us who is in front of us, and then 
applies the post-arrest consequence that is most appropriate 
for that class of individual. That has proven to be effective 
in a way that drove the recidivism down across the Southwest 
Border.
    Mr. Hurd. But that is driving down recidivism, that is not 
necessarily driving down illegal traffic across the border, 
correct?
    Mr. Vitiello. It is not.
    Mr. Hurd. Interesting.
    Madam Chairman, I have run out of time. I yield back the 
time I do not have.
    Ms. McSally. Thank you. The gentleman yields.
    The Chair now recognizes our colleague, Mrs. Torres, from 
California.
    Mrs. Torres. Thank you.
    Chief, over the past several years, CBP and the Coast Guard 
have seen an increase of smugglers using small boats, what is 
also known as pangas, along the California coast. Can you 
describe the challenges that you are having detecting and 
interdicting these pangas on the coastline? It is my 
understanding that too often you don't know they are there 
until they are on shore and the smugglers are long gone.
    Mr. Vitiello. So I think the biggest challenge is the 
vastness of the area that we are concerned with. So you can put 
a panga almost anywhere along the coast. So our job and what we 
have concentrated on is making the communities that are 
affected by this aware.
    We have, obviously, worked well with Air and Marine for 
directed patrols and feeding the intelligence that we know 
about, particular activity levels. We have done the same kind 
of work with Mexico to understand where the departure locations 
are. Then we have redeployed agents and technology along the 
coast so that we can be better prepared when we do know of a 
landing or an impending landing.
    Then, obviously, ICE on the follow-up for when these 
seizures are made, when we do interdict folks at sea or on the 
land in a panga, then they follow up and try to figure out what 
the network responsible, right, the criminal network that sent 
those people and that is part of their trafficking 
organization. So we have asked them to work back that 
information so that we can dismantle or disrupt that activity 
along the coast as well.
    I think the general might have----
    Mr. Alles. I will just comment that we put more assets out 
there in terms of the multi-role enforcement and tried to 
patrol the offshore in California. So that aircraft as we are 
buying it, it is currently being procured, has helped us 
increase our density for maritime domain awareness.
    It is still a problem out there. Though the pangas in many 
ways has dropped off, we still have a lot of concerns with what 
I will call legitimate conveyances. So if a lot of drugs are 
being moved or contraband are being moved in, basically, your 
mom and dad's cabin cruiser, obviously, it is an illegal 
activity, but you don't know it just by the vehicle itself. 
Where a panga, obviously, is just made for illegal activity. So 
that is more obvious.
    So that goes back to what Chief Vitiello mentioned in terms 
of higher cooperation with these border task forces, with 
Border Patrol, with ICE, with the other partners that are 
working in both the State, local, Federal to develop the 
information sources so we know where to interdict those 
vessels.
    Mrs. Torres. Are you coordinating with local authorities 
that may have a unit patrolling within their Coast Guard or 
within their coast?
    Mr. Alles. Yes, ma'am. Absolutely.
    Mrs. Torres. LAPD, San Diego PD, they all have boats.
    Mr. Alles. Right. All that cooperation is critical to us. 
The State and local is very critical to us.
    Mrs. Torres. Are you providing training for them? Are your 
officers training with them to help them understand and 
identify potential risks? Or are they on their own doing this?
    Mr. Alles. You might want to comment.
    Mr. Vitiello. Yes, in the task force environment, this is 
their threat as well, and so there is lots of cooperation with 
regard to presence on the water for those elements, the State 
and locals that do have patrol capability. Then in the task 
force environment, they are part of the follow-up that goes 
into the investigation and tries to identify which networks are 
responsible and then do the prosecutions for us.
    Then in the task force environment, under Operation Stone 
Garden in California, a lot of the resources that are applied 
through that grant are used for this activity, the task force 
environment specifically related to the offshore threat, the 
panga.
    Mrs. Torres. It is my understanding that the Coast Guard 
equipment and vessels have been greatly ignored over the past 
several years and have not necessarily been kept up-to-date. So 
how does that equipment or lack of equipment impact your 
ability to be able to identify and capture this activity?
    Mr. Vitiello. I can't speak to their profile as it relates 
to the investments or where they are at financially, but they 
are part of this response. So at the DHS level, they are in the 
task force environment. Obviously, they bring capabilities to 
the problem.
    Mr. Alles. I would just mention they are critical really at 
the medium range. So we have near-shore vessels that work 
inside the 12-mile limit basically. Their cutters are really 
what work at extended range to do the interdiction. So without 
them, and we have very high cooperation with them in terms of 
patrols, that is a missing component if they are not doing 
well.
    Mrs. Torres. Going back to the question that was asked, the 
numbers that I have for, that you are 1,700 agents 
underdeployed. That is the number that I have. In your 
recruitment efforts and your training process, how long is your 
training process and how many drop out during that process?
    Mr. Vitiello. I would have to get specific with numbers, 
attrition that relates at the academy. But most of the 
attrition that we see is in the hiring process itself. In the 
academy, there is probably, I think it is in the range of 8 to 
20 percent, somewhere in there. I could be more specific given 
some time to get back to you.
    Mrs. Torres. Okay. What I am really interested in is, after 
your initial investment in identifying potential candidates and 
putting them through a background and all of the expense that 
is associated with checking someone's background, I want to 
make sure that you are doing everything that you can to keep 
them in the academy and to graduate them.
    Mr. Vitiello. Yes. So there are a number of programs 
underway. The attrition at the academy isn't really the issue. 
Attrition overall is something that bears watching because we 
can maintain that investment if we do things to avoid attrition 
or to lower that number. But our main problem is touching 
enough people to apply and then people making it successfully 
through the hiring process.
    Mrs. Torres. Thank you.
    Ms. McSally. Thank you.
    Let's go into another round of questions here. I want to go 
back again to the effectiveness rate. I don't know if you have 
this number, Chief, but if you take out the unaccompanied 
children, those who have actually voluntarily turned themselves 
in, which I really think you should take out of the number 
completely, do you have a number of effectiveness, based on how 
you are measuring it, of those who have evaded apprehension and 
those that you have caught?
    Because, I think, as the number of people turning 
themselves in go up, your effectiveness rate goes up. So that 
is actually a really skewed way to measure it. I would 
encourage you to take it out. But if you take it out, what is 
your actual number?
    Mr. Vitiello. So we did look at that in specific detail. If 
you look at the south Texas activity profile, the family units 
and the UACs, the UACs are not trying to evade us. So this idea 
of turning themselves in is absolutely right on. So it would 
affect the effectiveness rate for that part of the border.
    It doesn't seem to hold true as you move west. So off the 
top of my head, if McAllen is in the 80 percent range with 
family units and UACs as part of the denominator, then it would 
be something less than that for adult males. It would be 
something less from that if you looked at the entire corridor, 
the sector itself.
    But, again, what I would like to point out is that we 
really do want our agents to record these encounters in 
specific detail. We want those numbers to be credible.
    Then anecdotally are the other trend lines, right? 
Interdiction effectiveness in and of itself is a good number. 
It is sticky. We all want to know how we do at bat. We all want 
to know our batting average. But there are other things that we 
are looking at that relate to overall activity.
    So I take your point that if those numbers are included and 
we were claiming success at 81 percent and we were all done, no 
more investment is required, then it would be a problem. But 
that is not where we are at. What we want to do is we want the 
system to credibly count what happens and then make adjustments 
from that, looking at the other 11 factors, the output measures 
that we are looking at.
    Ms. McSally. Yes, I agree. But I think we need to at least 
come to, like, an understanding and an agreement of what the 
formula should be, and then you can measure the effectiveness 
over time, right? If the formula does include those who are not 
evading apprehension, then that skews the formula.
    So can you at least get back to us with what the number 
really is maybe for last year once you take out those that were 
not evading apprehension? Then I would just encourage you that 
if you are reporting to us and reporting to the American people 
about your effectiveness, it should take those out of there, 
because you should be measuring the number that were evading 
apprehension and the number that you actually were able to 
catch. Does that make sense?
    Mr. Vitiello. Yes. I am happy to get back to you 
specifically with that population separate from the overall 
numbers.
    Ms. McSally. So similarly, again, just to remind everybody, 
those that you detected, that you apprehended, and turn-backs 
are in the numerator, and the denominator are those who got 
away, right, the total number you detected. I am probably doing 
that, but you included turn-backs in your success rate.
    Mr. Vitiello. For the overall effectiveness, right. So if 
there is an encounter at the line and the person evades by 
going back into Mexico, for instance, well, then, yes, we would 
use that as an assessment of that encounter.
    Ms. McSally. So they have to be back into Mexico for it to 
be counted as a turn-back?
    Mr. Vitiello. That is what we call a turn-back.
    Ms. McSally. Okay. I mean, are you guys accounting for the 
fact that they may turn around and 2 hours later come back over 
again?
    Mr. Vitiello. Of course, because all of the entries are 
recorded, that is part of the numerator as well, right? So if 
we see it directly, then that is counted. When people are 
encountered, the record of their entry is put into the system 
as well. So all of the back-and-forth is accounted for.
    Ms. McSally. Okay.
    How about if the Cochise County Sheriff's Department is the 
one who actually apprehends somebody or a drug load that has 
come over and then they turn them over to you, that, I am 
assuming, is included in your effectiveness rate as well, 
right?
    Mr. Vitiello. It depends on the timing but, generally, yes.
    Ms. McSally. So all State and local law enforcement 
apprehensions that are turned over to you are in the 
effectiveness rate?
    Mr. Vitiello. I believe if it is within 30 days of the 
recorded entry, yes.
    Ms. McSally. Okay. Do you break that out, as well? Like, 
can you give us the numbers of how many were actually 
interdicted by your guys versus State and local law 
enforcement?
    Mr. Vitiello. We can typically track what gets turned over 
to us, yes. I am happy to show you that.
    Ms. McSally. Okay. Great.
    I want to turn to infrastructure effectiveness. So we have 
1,954 miles of the Southern Border; 652 of those miles have 
some sort of barrier or fence, right, vehicle barrier, 
pedestrian fence; I think 299 miles of vehicle barriers. I am 
really testing my math here today, but--and then the rest would 
be pedestrian-focused.
    So if I do my math right, 1,302 miles of the Southern 
Border do not have any sort of barrier--vehicle barrier, 
pedestrian barrier--at this current time, correct?
    Mr. Vitiello. Correct.
    Ms. McSally. I think, Ms. Gambler, in your testimony, you 
talked about one of the challenges--this is taxpayer money, 
right, going into these barriers. Especially in the discussion 
that is going on today about what it will take to secure the 
border, we certainly owe the taxpayers some sort of report on 
whether the investment they are making, at millions of dollars, 
is actually effective before we would even make additional 
investments, you know, to complete the barriers.
    So I want would to ask, Ms. Gambler, for you to just 
elaborate on some of the concerns related to infrastructure 
assessment.
    Ms. Gambler. Sure. So 2 thoughts there, Chairman.
    One is that in GAO's prior work looking at tactical 
infrastructure, to include fencing, one of our key 
recommendations was for CBP to conduct an assessment to figure 
out the contributions of tactical infrastructure to their 
overall goals and measures for border security. So that is 
point No. 1.
    The second point is that we have on-going work right now 
for this subcommittee looking at CBP's oversight management and 
deployment of tactical infrastructure. That includes a number 
of the things that you just mentioned--looking at requirements, 
costs. We are also looking at how well CBP is maintaining and 
sustaining what they already have out there. It is not just 
necessarily about deploying new tactical infrastructure, but 
they need to maintain what they have.
    Then, third, we are looking at what data indicate about the 
potential effectiveness of tactical infrastructure and the 
contributions that tactical infrastructure can make to border 
security. We will be reporting that out to this subcommittee 
and others later this year.
    Ms. McSally. Great. Thank you.
    Chief Vitiello, if you were in a resource-unconstrained 
environment, of the 1,300 miles that are remaining, I mean, do 
you have a sense of how many miles or what percent you would 
want to put additional barriers and what types of barriers?
    Mr. Vitiello. Not specifically. I mean, I think what we do 
in this capability gap analysis is, when we task the field, we 
ask the agents on the ground, we ask the chiefs and the 
leadership in the field to say, hey, where are you being 
challenged by areas that lack control or have too high of 
activity where the risk is high, and then we would ask them.
    Of that 1,300 miles, some of that would be, you know, the 
natural barrier in and of itself would negate having to put 
man-made structures there, but there are probably a couple of 
miles out there where agents would like to have a physical 
barrier to give them an advantage.
    Ms. McSally. Is it a couple of miles, or is it a couple 
hundred miles?
    Mr. Vitiello. I don't know. I could----
    Ms. McSally. Okay.
    Mr. Vitiello. I would like to be more specific.
    Ms. McSally. Yeah.
    Mr. Vitiello. The CGAP tells us exactly that, and I could 
give you a zone-by-zone picture of where that might be.
    Ms. McSally. Okay. Great. Thank you.
    General Alles, could we talk a little bit about the use of 
VADER technology and how that is impacting the ability to 
increase situational awareness, No. 1?
    Look, we have VADER deployed on Predators in Arizona, but I 
have also heard individuals suggesting that we should be 
putting it on manned aircraft in order to complement some of 
the strengths and weaknesses of using it on unmanned aircraft.
    So if you could just comment on the use of VADER and 
increasing situational awareness and the potential to put it on 
manned aircraft.
    Mr. Alles. So I think, overall, and particularly in 
Arizona, we have seen quite a large gain in situational 
awareness by using the VADER system.
    So the system, if the dismount--so VADER, for those who are 
not aware, is a dismounted radar, basically. It tracks people 
who are walking on the ground. It has about over a 95 percent 
effectiveness rate if they are in the field of view of the 
radar and they are moving on the ground. So that is quite high. 
The numbers we continually--you know, on an average year, we 
will get in about 8,500, 9,000 detections off the VADER system, 
which is quite good considering the areas we use it in and the 
amount of time we have available.
    So it has been a good tool for us in terms of situational 
awareness, particularly in Arizona. It is now being moved into 
the south Texas area, so we are working with the Border Patrol 
in terms of implementation there. That is still a work in 
progress, working with the sector people to employ it most 
effectively.
    Then I would comment, on the manned side, the Army has 
deployed the system on manned aircraft. I think they have 5 of 
them, is what they told me. So that is a possibility.
    We looked at the endurance time, the dwell time of the 
system and the cost of putting it on a manned aircraft. It 
could be done. We, at this point, prefer to move towards 
effectiveness on the Predator system, overcoming more of the 
weather challenges, the basing challenges with the system to 
get more hours out of the airframe than actually moving down 
the road to a new airframe. It would go on our MEA aircraft, if 
we chose to do that----
    Ms. McSally. Yeah.
    Mr. Alles [continuing]. But right now we have moved down 
primarily the Predator route.
    Ms. McSally. So, I will just comment, I mean, you know, I 
have a lot of time airborne in the military, and, I mean, the 
unmanned and the manned bring strengths and weaknesses, right, 
and they are best when they complement each other. I mean, 
there is the dwell time that is the benefit of the unmanned, 
but there are limitations--FAA and weather--that the manned can 
actually then get into those gaps.
    So it is really not either/or, from my perspective. It is 
you are able to bridge some of those gaps by using both of 
them.
    I am way over my time, so I will hand it over to--if you 
want to just comment real quickly on that, and then----
    Mr. Alles. I would just say that one thing we looked at was 
kind of what I will call a ``VADER light'' to go on some of our 
smaller aircraft.
    Ms. McSally. Yeah.
    Mr. Alles. So the VADER on the larger Predator would be 
able to target smaller aircraft to a more localized vicinity 
based on movement they see. That is what we have been looking 
at lately.
    Ms. McSally. Okay. Great.
    Mr. Higgins.
    Mr. Higgins. Thank you.
    You know, Customs and Border Protection, the work of, you 
know, professional agents, a lot of it is intuitive and 
enhanced by, you know, technology that is available and that is 
emerging. I think the difficult thing with Customs and Border 
Protection is you rarely get credit for what didn't happen, but 
everything you do is about making things not happen.
    So, in this highly-charged political environment, there is 
a lot of talk about building walls and building them higher 
than they were proposed previously, including building a wall 
on the Northern Border.
    I mean, I just have to ask the question, because I really 
don't--is that a good expense of resources, or are we much 
better off hiring, you know, more professional Customs and 
Border Protection?
    I would ask the whole panel. I just----
    Mr. Vitiello. So we have seen great effect of the fencing, 
the wall that is there on the Southwest Border. I am not aware 
of a requirement on the Northern Border where a chief in the 
field or agents have said, hey, it would great to have a 
physical barrier here. The challenge on the Northern Border is 
not volume, like the Southern Border and it matters if you have 
a physical barrier. I have not seen a place on the Northern 
Border where fencing would make the difference.
    But in the CGAP and what we charge the sectors to do, if 
that requirement came forward, we would look at it, we would 
analyze it against some of the data that we have about where 
the fencing is----
    Mr. Higgins. Who would that order come forward from?
    Mr. Vitiello. So if, in the CGAP, in the planning tool, if 
they said, hey, this challenge could be overcome with a 
physical barrier, then we would consider it that way.
    Mr. Higgins. That has never happened?
    Mr. Vitiello. I am not aware of a requirement on the 
Northern Border for fencing.
    Mr. Higgins. But on the Southern Border it has?
    Mr. Vitiello. Oh, yes.
    Mr. Higgins. Oh, I see. Okay. So, in that regard, you know, 
the physical barrier has improved, you know, the work of 
Customs and Border Protection?
    Mr. Vitiello. Absolutely has.
    Mr. Higgins. Okay.
    Mr. Alles. I would just comment that, particularly on the 
Northern Border, we have focused the cooperation between 
Customs and Border Protection, other Federal, State, and locals 
as a critical piece. It is a large border. You know, trying to 
find isolated activity is very difficult. You can't do that 
without information or intelligence.
    So that has been our primary focus, is to focus in those 
areas. We have seen, actually, good results over the past 3 
years as a result of taking that approach, in terms of focusing 
more with those agencies on investigations or source 
information or the kinds of things that indicate criminal 
activity and then interdicting that activity.
    Ms. Gambler. Then, Congressman, I would add that I think 
your question gets at a key finding from GAO's body of work on 
border security programs, which is that DHS has not always done 
a good job of documenting and justifying the different 
investments it is making, whether that is in technology or 
other things.
    So I think your question gets at a key point of GAO's work, 
which is for DHS and CBP to do a better job of justifying and 
providing the justification for the investments that they are 
making so that the Department, Congress, and the public can 
have better oversight of what the planned investment is and 
what we hope to get out of it.
    Mr. Higgins. Well, to that issue, in your professional 
judgment, what would be the best utilization of resources--you 
know, human, technology, physical--given what you know today 
and what you anticipate tomorrow?
    Mr. Vitiello. My experience is you have to have a bit of 
all of that. You have to have sort of the--our first function 
in the Border Patrol is being present on the border, patrolling 
the border. But that is best done with having the right kind of 
technology that cues the work of agents, having these important 
relationships both in the United States with local, State, and 
Tribal law enforcement, as well as our counterparts in Canada.
    You have to have all of those things working together and 
then some awareness of the world-wide intelligence, what is 
happening both on the Northern and the Southern Border, inside 
those criminal networks, and where could the threats converge 
in certain locations. So you have to have a combination of 
things, resources, and information.
    Mr. Alles. I would agree on the combination but also 
highlight that, I mean, who we are trying to apprehend or 
arrest is a thinking person, so the agents are a key part of 
this. How they are trained and how they respond, I think, is 
very critical.
    Mr. Higgins. Are those answers acceptable to GAO?
    Ms. Gambler. I think what I would say, Congressman, is that 
this is why it is important for DHS and CBP to have in place 
some of the metrics we have been discussing.
    Because those metrics, not just over the overall metrics 
for border security but the things we have found in terms of 
having metrics for the contributions that fencing and tactical 
infrastructure have to border security, having metrics and data 
that assess the contributions that different technologies are 
having to border security, those types of measures and the 
associated data are really important to be able to position CBP 
and the different components to make those, you know, risk-
informed, resource-based decisions that I think we have been 
discussing.
    So I think the metrics are key for them to be able to do 
that.
    Mr. Higgins. Madam Chair, I just want to thank the panel. I 
think, you know, their testimony and their responses have been 
very, very helpful to this committee and its work. So thank you 
very much.
    Ms. McSally. Thank you.
    I have a few more questions if you have a little endurance 
here. We have a captive audience, so thanks.
    One more deep dive into, kind-of, the assessment of 
effectiveness.
    Chief, do you guys assess--I mentioned in my opening 
statement--where they are intercepted, how close to the border 
they are intercepted, as a measure of effectiveness?
    Intercepting drug cartels on the south side of John Ladd's 
ranch in Arizona, for me, is far more effective, and to my 
constituents, than on the north side of his ranch. You know, 
even a mile is like an eternity if you are living right on the 
border, right, and then 5 miles or 20 miles or 100 miles.
    I have seen the heat map, so, I mean, I see, kind of, where 
your interceptions are. But as part of your effectiveness, the 
nirvana for us is that the interceptions are happening at the 
border, at the line of scrimmage, so that they are not a public 
safety threat and impacting the perception of security in the 
community.
    So, as part of your effectiveness, are you doing a deeper 
dive into where they are intercepted? Or is somebody who is 
intercepted 100 miles inland just as effective as somebody who 
is intercepted right at the border?
    Mr. Vitiello. So we agree that we would like to do this 
work as close to the line as possible. It feeds into all kinds 
of the logistics and how we are effective and how we are moving 
activity and changing and assessing risk at those locations.
    We can and do landmark all of the apprehensions, so the 
heat map is based on, you know, physical encounters that are 
recorded in real time. Then we do have a measure that looks at 
the number of apprehensions at a checkpoint versus what happens 
on the line.
    So, yes, in all of the places that I worked, when I worked 
in Nogales--and I know this is true in Douglas when it was a 
lot busier than it is now--part of our quest was to compress 
the zone of enforcement and do this work as close to the line 
as possible. It makes us more efficient over time.
    So, when you look at the effectiveness and you look at all 
the trends, the recidivism, the kinds of apprehensions that are 
being made of people who have criminal records, when you are 
looking at drug seizures, you want to have that done as close 
to the border as possible. Because we can landmark those 
apprehensions, we can show you in detail where most of the 
arrests are being made.
    Ms. McSally. So that is another thing I would like you to 
get back to us on if you have numbers already--or, you know, 
start measuring that--is, of the number you are saying you are 
effective, how many are, like, within a couple hundred yards of 
the border and then how many are, like, deeper in, just to be 
able to get a sense of where the effectiveness is of getting 
them at the border before they are a public safety risk.
    Mr. Vitiello. I will be happy to show you that.
    Ms. McSally. Great. Thank you.
    Okay. One last question. The use of unmanned aerial systems 
or drones is certainly increasing situational awareness for 
you, using systems like the Predator. Great. But there is also 
the opportunity for tactical-level drones for the agents to be 
able to use that are not necessarily controlled out of your 
office, General, but are actually run by the units and the 
sectors.
    Equating, again, to my military experience, we have the Air 
Force and assets that are controlled by the Air Force, but the 
Army, you know, and the Marines, they also have their tactical-
level airborne assets and drones that give them situational 
awareness that they can launch in order to build situational 
awareness and is controlled by them.
    Is this something that you all are looking into to deploy 
for the agents so that they can have their own situational 
awareness without having to be controlled out of Air and 
Marine?
    Mr. Alles. So it definitely is something we are looking at. 
I mean, right now, the hold-up has been FAA rules. So we have 
no rules yet to operate those systems. When we do, we want to 
do a pilot with the Border Patrol. I think it would be 
advantageous in certain areas.
    I would remark, since I used these things in the Marine 
Corps, they have attacks. I mean, someone has to fly the 
platform, and it is not as self-sufficient as probably----
    Ms. McSally. Yeah.
    Mr. Alles [continuing]. The contractor advertises. However, 
I do think it has advantages. We have talked with them 
extensively about special operations use or maybe even just 
general line use. So I think that is the way we will progress 
in the future.
    Ms. McSally. Chief, is that something you want to comment 
on?
    Mr. Vitiello. Yeah, that is correct. As I have talked about 
capability gap analysis, there are several sectors that have 
come forward and asked for those assets so that they can be 
better at solving the problems we are asking them to.
    Ms. McSally. I am even talking about some of the ones that 
are just handheld. An agent on the ground launches one and it 
just gives them a bigger picture of that, you know, 3D that 
they don't necessarily have.
    I will comment that Cochise College in my district actually 
has a great unmanned aerial systems training program. They 
would love to, you know, be able to partner, if we are talking 
about using the tactical system like that, to be able to 
partner, because it is right there near the border, and, you 
know, providing some of that training.
    But I just think this is something that is worth looking 
into, even though you don't want to have a huge tax, but it 
certainly----
    Mr. Alles. Right.
    Ms. McSally [continuing]. Would increase situational 
awareness.
    Mr. Alles. No, I think so.
    I was going to comment, too, on the comments about 
apprehensions close to the border. Be aware that as we use the 
VADER system we are actually tracking in Mexico, and that 
information is being passed. So the intent is to interdict as 
close to the line as possible. So that is a regular occurrence 
daily out there in Arizona.
    Ms. McSally. Great. Thank you.
    Well, let me just say that we have so many Border Patrol 
Agents and Air Interdiction Agents across the Southern Border 
that are working right now in order to, you know, keep our 
country and our community safe. I know we are all grateful. On 
the Northern Border, as well. I didn't mean to forget that. We 
appreciate all the hard work that you all are doing and that 
they are doing right now out there. Like many in law 
enforcement, you never know when you are going to work, you 
know, what you might come upon. So we appreciate them putting 
the uniform on every single day and appreciate all you are 
continuing to do in your service in order to address some of 
these issues to keep our country and communities safe.
    I want to thank the witnesses for your valuable testimony 
today. I really appreciated, you know, the discussion and the 
questions. We have some other follow-up questions we would love 
to hear back from you on.
    I appreciate the Members' questions. I thought it was, 
again, a good discussion.
    Members of the committee may have some additional questions 
for the witnesses, and so we just ask that you respond to those 
in writing if they submit them. Pursuant to committee rule 
VII(e), the hearing record will be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:18 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
